<html>
<title> - IMPLEMENTATION OF THE HAGUE CONVENTION ON INTERCOUNTRY ADOPTION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
    IMPLEMENTATION OF THE HAGUE CONVENTION ON INTERCOUNTRY ADOPTION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, OCTOBER 20, 1999

                               __________

                           Serial No. 106-110

                               __________

    Printed for the use of the Committee on International Relations


                               <SNOWFLAKE>


 Available via the World Wide Web: http://www.house.gov/international 
                               relations


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
64-746 CC                   WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
               Kristen Gilley, Professional Staff Member
                     Jill N. Quinn, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Tom Bliley, a Representative in Congress from the 
  State of Virginia..............................................     7
The Honorable Mary A. Ryan, Assistant Secretary for Consular 
  Affairs, U.S. Department of State, accompanied by Jamison 
  Borick, Deputy Legal Adviser, Office of Legal Advisers, U.S. 
  Department of State............................................     9
Ms. Patricia Montoya, Commissioner for Children, Youth, and 
  Families, Department of Health and Human Services..............    11
Ms. Susan Freivalds, Hague Coordinator, Joint Council on 
  International Children's Services..............................    32
Dr. Jerri Ann Jenista, American Academy of Pediatrics............    34
Mr. David Liederman, President and CEO, Council on Accreditation 
  of Services for Families and Children..........................    36
Mr. Sam Pitkowsky, Adoptive Parents Committee of New York........    38
Ms. Kathleen Sacco, Adoptee......................................    39

                                APPENDIX

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................   169
The Honorable Sam Gejdenson, a Representative in Congress from 
  Connecticut....................................................   171
The Honorable William Delahunt, a Representative in Congress from 
  Massachusetts..................................................   173
Representative Tom Bliley........................................   103
Ambassador Mary Ryan.............................................   107
Ms. Patricia Montoya.............................................   115
Ms. Susan Freivalds..............................................   122
Dr. Jerri Ann Jenista............................................   130
Mr. David Liederman..............................................   147
Mr. Sam Pitkowsky................................................   158
Ms. Kathleen Sacco...............................................   164

Additional material submitted for the record:

Statement of the Honorable Mary Landrieu, a United States Senator 
  from Louisiana, submitted in lieu of appearance................   176
Statement of the Honorable Dave Camp, a Representative in 
  Congress from Michigan.........................................   180
Convention on Protection of Children and Co-operation in Respect 
  of Intercountry Adoption.......................................    44
H.R. 2909, The Intercountry Adoption Act of 1999.................    57
Statement of the American Academy of Adoption Attorneys 
  concerning H.R. 2909, The Intercountry Adoption Act of 1999....   182
Supplement to Statement of the American Academy of Adoption 
  Attorneys......................................................   188
Statement of the National Council of Birthmothers concerning H.R. 
  2909, The Intercountry Adoption Act of 1999....................   192
Statement of the Child Welfare League of America, Inc. concerning 
  H.R. 2909, The Intercountry Adoption Act of 1999...............   195



    IMPLEMENTATION OF THE HAGUE CONVENTION ON INTERCOUNTRY ADOPTION

                              ----------                              


                      Wednesday, October 20, 1999

                  House of Representatives,
              Committee on International Relations,
                                           Washington, D.C.
    The Committee met, pursuant to notice, at 10 a.m. in Room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order.
    I want to welcome all of you here today for this hearing on 
The Hague Convention on Protection of Children and co-operation 
in respect of Intercountry Adoption. We greatly appreciate the 
experts in the room who have made an effort to be here to share 
their views with us.
    [The information referred to appears in the appendix.]
    As an adoptive parent of two children, I can understand the 
importance of developing policies that work for the best 
interests of the child. I also understand that when parents are 
seeking to adopt, they should expect the highest standards in 
ethical behavior of the agencies or persons involved with an 
adoption.
    The fact is that there have been serious abuses in 
intercountry adoptions, enough so that the international 
community coalesced to produce The Hague Convention. The U.S. 
signature to this convention affirmed a commitment to approving 
the intercountry adoption process, and recognized that 
international adoptions are increasingly part of establishing 
families in the United States.
    With the volume of foreign adoptions in this Nation, more 
than 15,000 in 1998, it is important that international 
standards be in place. These standards will provide parents 
with the confidence that this emotional undertaking will not 
leave them open to fraud or abuse. It will also protect the 
children and the rights they inherently hold.
    Ratification of the Convention by the Senate triggers a 
need for implementing legislation. In September, I introduced a 
bipartisan bill, H.R. 2909, the Intercountry Adoption Act, that 
provides the Administration with the necessary authorities to 
implement the Convention. This bill also reflects the extensive 
work of key Members, Mr. Gejdenson, Mr. Camp, Mr. Delahunt, and 
Mr. Bliley. I am grateful to them for their assistance. Today 
we have 41 cosponsors on that measure.
    [The information referred to appears in the appendix.]
    Chairman Gilman. We have made an earnest attempt to craft a 
bill that matches our Nation's obligations under the 
Convention. We have followed the recommendation of the 
Administration to designate the Department of State as a 
central authority, and to assign responsibility for the 
accreditation process, including oversight and enforcement, to 
the Department of Health and Human Services.
    The purpose of today's hearing is to encourage a discussion 
of The Hague Convention and H.R. 2909 by those in the 
international adoption sector, adoptive parents, adoptees, and 
the Administration. The intent is to further our understanding 
of the range of concerns, and, if necessary, to try to improve 
the bill. This measure is designed to carry out our 
international obligations and to institute consumer protections 
in the adoption process.
    There are issues within the adoption community that do 
divide and polarize. One such issue is access to identifying 
information and privacy concerns. I know there are strongly 
held views on these issues. The moderate approach taken in our 
measure, H.R. 2909, reflects an effort to try to accommodate 
both of those interests. There is no consensus on the exact 
formula for access to records, as evidenced by the variance in 
the 50 State laws. In essence, the bill defers access to 
identifying information and records to State law.
    I believe our interests are best served by moving the 
process along as promptly as possible. At this point, 36 
countries have already ratified the convention. Our Nation 
should be the 37th. We need to affirm to the international 
community the U.S. commitment to ethical and expeditious 
adoption practices.
    For today's hearing we have three panels. First, if they 
arrive on time, we will hear from two Members of Congress. If 
they do not, we will proceed with the next panel.
    We will hear from our representatives of the Administration 
who will be responsible for administering the obligations of 
the Convention. Last, we have a panel of experts in various 
areas of adoption.
    At this point, I yield to the Ranking Member, Mr. 
Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I will be very 
brief. I want to commend you and Mr. Delahunt for all the work 
you have done in this area.
    In the last decade we have had 150 percent growth in the 
number of international adoptions. As the globe continues to 
shrink, we will see more and more of these international 
adoptions. While we are at the beginning of this process--and 
this bill will go through further changes trying to adjust to 
what the consensus is or the general best approach is here--it 
is important for us to come forward with clear rules that make 
it easier for parents, that give them the best and most 
accurate health care records available, and that make sure 
America continues in its attempt to work within the 
international community.
    Clearly, international adoption solves problems. Children 
living without loving families and in often terrible conditions 
have an opportunity for a very bright and optimistic future 
here in the United States or with adoptive parents in other 
countries. We want to make sure that the families that get 
involved in these adoptions are not tortured by a bureaucratic 
process that often makes it difficult to make these children 
citizens, makes it difficult to change their names, and 
complicated in so many ways.
    We want to make sure that some individuals who might be 
inclined toward unethical behavior in this area, as in any 
other, do not have an opportunity to victimize these people who 
have such great intentions.
    I commend the Chairman and Mr. Delahunt again for their 
great work in this area, and I hope that we will learn from 
these hearings and then expeditiously be able to move our 
legislation forward.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    [The information referred to appears in the appendix.]
    Chairman Gilman. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    Last month I was very proud to join with you and Mr. 
Gejdenson and over 30 of our colleagues in introducing the 
Intercountry Adoption Act of 1999. I genuinely want to commend 
you and Mr. Gejdenson for your many months of hard and diligent 
work on this bill and for holding this hearing today.
    Prompt U.S. ratification and implementation of The Hague 
Convention is of enormous importance to many thousands of needy 
children throughout the world and the American families who 
adopt them. U.S. ratification will signal our desire to 
encourage intercountry adoption and our commitment to creating 
a legal framework that will better protect adoptive families 
and their children.
    As many of my colleagues are aware, my younger daughter 
Kara was born in Vietnam and came to this country as part of 
Operation Baby Lift during the mid-1970's, when Saigon was 
falling to the Communists. So I am personally aware of how 
important it is that we make it possible for children like my 
daughter to find safe and loving homes through intercountry 
adoption, when they cannot be placed in their country of 
origin.
    The bill we are considering today is a blueprint that will 
enable the United States to carry out its obligations under the 
Convention. It is, as you, Mr. Chairman, reviewed, the 
culmination of many months of hard work, during which time we 
consulted extensively with the Administration and many 
interested parties within the United States adoption community.
    Again, I want to thank you as well as Mr. Gejdenson, Mr. 
Smith, Mr. Bliley, and Mr. Camp for what has been a thoughtful 
and bipartisan effort.
    From the outset of this project, we agreed that we should 
adopt a minimalist approach, deferring wherever possible to the 
State laws by which we have always regulated adoption in this 
country. We tried to steer clear of extraneous and 
controversial issues, and have resisted attempts to use this 
bill to carry out changes to domestic adoption practices that 
are not strictly required to bring our laws into compliance 
with the Convention. I believe that process was fundamentally 
sound, Mr. Chairman, and resulted in what is in most respects a 
fine piece of legislation.
    Having said that, I recognize that there are features of 
the bill as introduced that can be improved. That is, after 
all, why we have hearings. I want to assure those in the 
adoption community who have concerns about the bill that we are 
listening.
    This is particularly important with regard to one provision 
of the bill which I understand has caused considerable 
consternation within the adoption community. I refer to the 
provision related to disclosure of adoption records. To say 
this is an emotionally charged issue would be a serious 
understatement. As an adoptive parent myself, I share the 
feelings of many thousands of parents about their children's 
right to their birth records, whether for serious medical 
reasons or simply to satisfy the need we all have to understand 
who we are and where we came from.
    The Convention requires that records be preserved and that 
access be provided to the extent permitted by law. Most of the 
countries that send children to the United States do permit 
access. On the other hand, some sending countries do not. In 
those countries, birth families have a reasonable expectation 
that records would not be disclosed. So in drafting this bill, 
we tried to balance the equities, to be sensitive to the 
concerns of all segments of the adoption community, and to 
craft language that would allow access in cases of genuine need 
while permitting the laws that govern access to adoption 
records, both here and abroad, to continue to evolve.
    Now we have reached that part of the legislative process 
when we hear reactions from the field. The early returns 
suggest that we may not have achieved the balance we were 
seeking. Some have read our provision as barring access to 
records which today are freely available as part of the 
preadoption process, as curtailing access even when permitted 
by the laws of the sending country, and as subjecting those who 
share information to criminal penalties even when this is done 
with the full knowledge and consent of the birth family.
    Without prejudging the merits of these concerns, I think we 
need to listen to them and consider their ramifications for 
children and for their families, and for the very goal we are 
trying to advance, international adoption itself. I am sure 
that none of us would want to create a situation in which 
penalties and restrictions we impose on adoptees and their 
families might cause other countries to stop sending children 
to the United States.
    I know my colleagues and I will remain open to all points 
of view on these issues, Mr. Chairman. I want to assure all 
segments of the adoption community that Members of Congress 
will be listening carefully to what they have to say. That is 
what this process is for. I have faith in the process, and I 
believe that in the end we will get it right.
    Again, Mr. Chairman, I want to express my appreciation to 
you for scheduling this hearing. I look forward to the 
testimony.
    Chairman Gilman. Thank you, Mr. Delahunt.
    [The information referred to appears in the appendix.]
    Chairman Gilman. Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman. Thank you for your 
willingness to hold this hearing.
    I also would like to take this opportunity to thank my 
colleagues who have joined us to discuss the intercountry 
adoptions. In particular, I would like to thank Senator Mary 
Landrieu, who, along with Senator Helms, got the ball rolling 
on this important process by introducing S. 682.
    I would also like to thank my other Committee Chairman, Tom 
Bliley, who will testify this morning, for his active interest 
and participation in the process.
    Mr. Chairman, in the last 10 years almost 100,000 children 
have joined U.S. families through intercountry adoption. For 
too long we have heard horror stories from our constituents 
about the process of adopting children from overseas. While the 
adoption process can run smoothly, it is all too often plagued 
by unnecessary delay, fraud, duplicative court processes, and 
exorbitant cost.
    We are here today to discuss legislation that will make the 
process more transparent, more orderly, and less stressful for 
those who want to provide a child with nothing more than a 
loving home.
    On June 24, Representative Ballenger and I introduced H.R. 
2342, the Intercountry Adoption Convention Implementation Act. 
I am sure that it was not the Committee's intent to leave that 
out of the briefing papers.
    This legislation, which is a companion to that introduced 
by Senator Helms and Senator Landrieu, would provide the 
framework by which the United States will carry out its 
obligations under The Hague Convention on Intercountry 
Adoption, which the United States signed in 1995.
    The single largest difference between S. 682, H.R. 2342, 
and H.R. 2909 is the role of the Department of Health and Human 
Services. One version of the legislation leaves HHS out. The 
other gives the Department a major role.
    It is a fundamental difference, though, Mr. Chairman. I am 
concerned about adding yet another layer of bureaucracy to an 
already unwieldy, inefficient, and bewildering structure of 
HHS. Doing so, in my opinion, will do no one any good, let 
alone the children and parents involved in intercountry 
adoptions.
    Second, I feel that opening the door of agency 
accreditation to HHS, a domestic agency, will only encourage 
the agency to pursue greater involvement in domestic adoptions, 
where most regulations are left to the States, and the Federal 
role is limited.
    This hearing and this legislation is largely about 
overseeing the activities of adoption providers overseas. If 
further staffing and resources are needed to allow the State 
Department Office of Children's Issues to meet its obligation 
under S. 682 or 2342, so be it. But to say that State is not up 
to dealing with the issue is disingenuous.
    To quote from the State Department's Web site, ``The Office 
of Children's Issues formulates, develops and coordinates 
policies and programs and provides direction to Foreign Service 
posts on intercountry adoption. The Office of Children's Issues 
coordinates policy and provides information on international 
adoption to the public. We offer general information and 
assistance regarding the adoption process in over 60 
countries.''
    I fail to understand how State is suddenly incapable of 
dealing with accreditation of agencies it works with on a daily 
basis.
    I am pleased to see that representatives of both State and 
HHS are scheduled to be here today, and I hope that they can 
address my concerns that I have raised this morning.
    Mr. Chairman, once again, thank you for your willingness to 
hold this hearing, and as one who has ventured through some 43 
hearings on electricity restructuring, and we are still not 
there, I am hopeful that you will not go for 43 on this. But I 
am hopeful, Mr. Chairman, that you will air this issue, because 
I think there is a huge difference between the HHS and the 
State Department.
    Chairman Gilman. Thank you. We will try to short-circuit 
the hearing.
    Chairman Gilman. Mr. Pomeroy.
    Mr. Pomeroy. Mr. Chairman, thank you. I regret that after 
giving this statement, I have to go to the Committee on the 
Judiciary to present testimony.
    Chairman Gilman. We understand those problems.
    Mr. Pomeroy. I commend you for holding this hearing, and 
commend the sponsors for introducing this important 
legislation.
    For years American families have reached across cultural 
and national boundaries to embrace children through 
international adoption. In 1998 alone, almost 16,000 children 
are uniquely and forever enriching families into whom they were 
accepted in this country.
    By signing The Hague Convention on the Protection of 
Children and Co-operation in Respect of Intercountry Adoption, 
the United States and over 60 other nations recognize the 
importance of international adoption. The Hague Convention 
creates a structure to strengthen cooperation among nations in 
adoption, protects adoptive families from fraud and abuse.
    Although this was signed in 1994, we have yet to ratify it. 
The Intercountry Adoption Act provides the necessary changes to 
implement The Hague Convention. It would strengthen the process 
that builds thousands of international adoptive families every 
year. Our legislation sends a strong signal that the United 
States is committed to providing permanent homes for its 
children and for children all across the world that need those 
homes.
    There are some individuals in the audience who I would just 
like to recognize for their outstanding work in this area: Bill 
Pierce, the head of the National Council on Adoption; and Susan 
Cox of the Holt Agency, who herself was one of the very first 
young children brought over from Korea and placed with a home, 
which became a wonderful family in Oregon.
    I just want to say, my interest in this legislation perhaps 
exceeds in a very personal way any other legislative proposal 
that not just this Committee will consider, but Congress will 
consider, in light of the fact that since I have been a Member 
of Congress my family has been changed with the adoption of two 
children born in Korea. Kathryn and Scott have made such a 
profound difference in our lives that I can only know too well 
the beauty and the blessing and the miracle of intercountry 
adoption, and also the absolute imperative of making certain 
that adoptions across countries, across cultures, are free of 
fraud and free of the kinds of issues addressed in The Hague 
Convention.
    So this is truly the Lord's work this Committee is 
attending to this morning, Mr. Chairman. I commend you for your 
leadership in it.
    Chairman Gilman. Thank you, Mr. Pomeroy.
    Chairman Gilman. Now we are pleased to welcome our first 
panel. We have testifying as part of the first panel Chairman 
Tom Bliley, and we are still expecting Senator Mary Landrieu of 
Louisiana, both on our first panel.
    Chairman Bliley represents the Seventh Congressional 
District in Virginia. In addition to his duties as Chairman of 
the Committee on Commerce, he also Chairs the Adoption Caucus.
    We welcome Chairman Bliley, and I invite you to summarize 
your statement. Your full statement can be made part of the 
record. Please proceed.

STATEMENT OF HON. TOM BLILEY, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF VIRGINIA

    Mr. Bliley. Thank you very much, Mr. Chairman. Thank you 
for allowing me to testify.
    As an adoptive father, I have taken a great interest in the 
subject of intercountry adoption. Over the last couple of 
years, I have had the pleasure to meet with Russian Duma 
Deputies, Russian judges and prosecutors, and the Director 
General of the China Center on Adoption Affairs.
    All of these officials raised concern about the lack of a 
Federal Government authority they can turn to in case there is 
a problem with an international adoption. Accordingly, I 
cosponsored The Hague Intercountry Adoption Act because it 
establishes a central authority in the State Department to 
monitor intercountry adoptions.
    Prior to my cosponsorship of The Hague Convention, I was 
deeply alarmed by the terrible conditions of Russian 
orphanages. Most orphanages lack sufficient funds to pay for 
food, clothing, training, health care, and fuel. It pains my 
heart to know that the majority of these children are never 
adopted and are consequently in need of a loving family.
    As a result of the dire news and the fact that Americans 
have adopted more children from Russia than any other country, 
Representative James Oberstar and I were able to secure $3 
million in foreign aid for orphans and displaced children in 
Russia in the Fiscal Year 1999 Omnibus Appropriations Act last 
October.
    I believe helping disadvantaged children overseas is an 
important investment that improves our relationships with other 
countries and advances our foreign policy objectives. 
Accordingly, Representative Oberstar and I set out to 
significantly increase the foreign aid budget for orphans and 
displaced children to $30 million for fiscal year 2000. We were 
successful in securing these funds in the House-passed Foreign 
Operations Appropriations Act this year. Unfortunately, we lost 
out in conference, but as you know, the President's veto means 
we will have another attempt to increase aid for orphans.
    As a supporter of The Hague Intercountry Adoption Act, you 
and I and many other Members of this Committee are answering 
the cries of help of thousands of Russian orphans and abandoned 
children worldwide in their search for a loving family to join 
by working to keep intercountry adoption as a viable option.
    I owe it to my constituents to view legislation with a wary 
eye if it tramples the rights of the States. In particular to 
The Hague Intercountry Adoption Act, there are some activist 
groups with a political agenda of opening State adoption 
records. It is their right to work in the States to advance 
their legislative goal. It is my right to say that this matter 
is best left to the States.
    I also understand the Committee is getting pressure to open 
adoption records. My response to you is to leave access to 
adoption records for the States to decide. I can assure you 
that you will always hear from people advocating support for 
open adoption records. You will rarely hear from birth mothers 
who desire to preserve the privacy guaranteed to them when they 
placed their child up for adoption.
    During the drafting process, we adhered to what is required 
by The Hague Convention in the area of adoption records. If the 
legislation is amended, and a precedent is established by the 
Congress regarding access to identifying information to 
adoption records for international adoptees, it will lead to 
the Federalizing and disclosure of identifying information for 
all domestic adoptions. In doing so, we will set a precedent 
that ignores the laws of 50 States.
    Access to identifying information is an issue that deeply 
divides men and women of good character throughout the adoption 
community. I speak from experience when I say that the Congress 
should defer this issue to the 50 States.
    Passage of The Hague Intercountry Adoption Act will rely on 
two strong and simple principles. If there is a conflict 
unrelated to The Hague Convention between the Federal 
Government and the State government, the Congress should side 
with the States. If there is a conflict unrelated to what is 
required in The Hague Convention concerning access to adoption 
records and the disclosure of identifying information between 
foreign governments, our Federal Government and our 50 States, 
the Congress should side with the States.
    Thousands of children worldwide are waiting helplessly for 
parents to read to them, to teach them how to tie shoelaces, to 
say bedtime prayers with them, and to eat ice cream with them 
on a summer night. It is in the best interests for a child to 
be part of a loving family. The Hague Intercountry Adoption Act 
gives the U.S. Congress an opportunity to stand up and reaffirm 
our support for intercountry adoption. I am proud to support 
this bill because I have been blessed by my own experiences 
with adoption, so now I am doing what I can to help thousands 
of innocent children find a home.
    [The prepared statement of Mr. Bliley appears in the 
appendix.]
    Chairman Gilman. Thank you, Chairman Bliley. I want to 
thank your staff as well for their assistance in helping to 
draft this bill. We know you are in a markup, so we will not 
detain you. Again, thank you for taking your time and for your 
contribution today.
    We will now proceed to panel No. 2, and we may have to 
interrupt that panel if the Senator arrives, and give her an 
opportunity to make her statement.
    Our second panel consists of Ambassador Mary Ryan and 
Commissioner Patricia Montoya.
    Ambassador Ryan is currently the Assistant Secretary of 
State for Consular Affairs. She has been in that job, much to 
this Nation's benefit, since 1993. Secretary Ryan holds the 
distinction of rank of Career Ambassador, reflecting an 
outstanding career in the Foreign Service. She has served in 
many nations in her more than 30 years in the Foreign Service 
and holds degrees from St. John's University in New York.
    Ms. Montoya is a Commissioner on Children, Youth, and 
Families at the Department of Health and Human Services. In 
that position she oversees the implementation of Federal 
programs that assist vulnerable children and youth. She also 
serves as the Administration's spokesperson on issues relating 
to child and youth development, child protective services, 
foster care, and adoption.
    Prior to this position, she was Regional Director of Region 
6 for HHS, where, among other duties, she was the liaison to 
Federal, State, and local elected officials and businesses and 
community leaders. She is a nurse by training, and throughout 
her career she has worked to improve outcomes for children and 
families, through her work in pediatrics, school health, and 
community outreach. We welcome you to this panel.
    Ambassador Ryan and Commissioner Montoya, you may summarize 
your statements. Your full statements will be made part of the 
record. The entire statements will be accepted by the 
Committee, without objection.
    Please proceed, Ambassador Ryan.

 STATEMENTS OF MARY A. RYAN, ASSISTANT SECRETARY FOR CONSULAR 
   AFFAIRS, U.S. DEPARTMENT OF STATE, ACCOMPANIED BY JAMISON 
  BOREK, DEPUTY LEGAL ADVISER, OFFICE OF LEGAL ADVISER, U.S. 
                      DEPARTMENT OF STATE

    Ms. Ryan. Thank you, Mr. Cairman and Members of the 
Committee, I am delighted to be here today to have the 
opportunity to discuss with you international adoption and the 
1993 Hague Convention on the Protection of Children and 
Cooperation in Respect of Intercountry Adoption, and the 
proposed implementing legislation for that Convention.
    I have with me today Jamison Borek, the Deputy Legal 
Adviser from the State Department's Office of Legal Adviser, in 
case you should have legal questions that are better answered 
by an expert attorney.
    I would like to thank you, Mr. Chairman, and other Members 
of the Committee and the Congress who have shown such an 
interest in the Convention and its implementation, as well as 
the dedicated staff who have devoted long hours and worked so 
diligently on H.R. 2909.
    While there are some differences, we are pleased that the 
legislation is very similar to the Administration's own 
proposal. The protection and welfare of American citizens is 
the State Department's highest priority. This includes American 
parents building families through international adoption, and 
American children finding families abroad through international 
adoption.
    We want to ensure that our children are protected once 
overseas and that those brought to this country and their 
adoptive parents are equally protected. These are concerns that 
many Members of Congress and the Senate share.
    The United States, particularly since World War II, has 
opened its arms to orphaned and abandoned children around the 
world, and many parents look to international adoption to build 
American families and to provide a better life for these 
children. These families are as diverse as America itself, 
including extended families, married couples, multicultural 
families, and single-parent households.
    However, sadly, along with all the positive benefits of 
international adoption, there have been some abuses. This fact 
ultimately prompted 66 countries to convene in The Hague to 
prepare The 1993 Hague Convention on Intercountry Adoption, 
which provided standards to protect children, their birth 
parents, and their adoptive parents.
    State, the Immigration and Naturalization Service, and 
Health and Human Services have consulted with the private 
adoption community, with parents, with lawyers, and with other 
professionals on the general concepts of the proposed Federal 
implementing legislation, which resulted in the 
Administration's submission to the Congress in May 1999. Senate 
bill 682 was introduced in March 1999, and H.R. 2909 in 
September 1999.
    Mr. Chairman, while there is some divergence of opinion 
between H.R. 2909 and S. 682 as to which agency might be best 
suited to establish and oversee the accreditation of 
international adoption service providers, the Administration 
strongly believes that the accrediting function should rest 
with the Department of Health and Human Services, as proposed 
in H.R. 2909. HHS, as the only Federal Government agency with 
relevant experience in evaluating and working with domestic 
adoption programs and social service providers, is better 
suited to handle this function than the Department of State.
    In our collaboration over the past two years with Health 
and Human Services in working on the implementing legislation, 
we have built a strong working relationship which has only 
convinced us all the more that HHS is the appropriate agency to 
handle the accreditation function. It has the experience, it 
has the knowledge, and it is best for the children.
    The world will watch how the United States implements this 
Convention and how it protects children, birth parents, and 
adoptive parents. Several of the largest source countries have 
indicated to us that they are looking to us to ratify and 
implement the Convention quickly, and that they plan to model 
their own programs after ours. This latter point is 
particularly important as it bears directly on the ability of 
Americans to adopt abroad.
    Mr. Chairman, we are very pleased that the Congress has 
taken such an interest in this Convention's implementing 
legislation. Americans adopt more children internationally than 
any other country. Our citizens will benefit the most from the 
safeguards in this important treaty. We are eager to work with 
the Congress and the adoption community to safeguard and 
facilitate intercountry adoptions for all those qualified, and 
to bring children and parents together to bond as quickly as 
possible.
    Mr. Chairman, as I conclude my testimony today, I would 
like to reiterate my thanks to you, to the Members of your 
Committee, and to the Committee staff for the wonderful spirit 
of collegiality and cooperation which we have enjoyed as this 
important implementing legislation was developed.
    I very much appreciate the opportunity to testify before 
you today. Thank you, sir.
    Chairman Gilman. Thank you, Ambassador Ryan.
    [The prepared statement of Ms. Ryan appears in the 
appendix.]
    Chairman Gilman. Commissioner Montoya, please proceed.

   STATEMENT OF PATRICIA MONTOYA, COMMISSIONER FOR CHILDREN, 
  YOUTH, AND FAMILIES, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Montoya. Chairman Gilman and Members of the Committee, 
I am pleased to appear before you to discuss the role that HHS 
expects to play should we be given responsibility for 
implementing the accreditation provision contained in the 
Intercountry Adoption Act of 1999.
    I would like to commend the approach that Members of the 
House have taken in the bipartisan and cross-committee 
development of H.R. 2909. Both the Administration's proposed 
legislation and your bill represent sincere efforts to develop 
consensus on the issues raised by the treaty and to implement 
the Convention's provisions with the best interests of children 
firmly at the forefront.
    As you know, this treaty is an important step toward 
protecting the interests of children, birth parents, and 
adoptive parents in the rapidly expanding practice of 
intercountry adoption. In my statement I will comment on the 
purposes of accreditation under The Hague Adoption Convention, 
address why we believe that HHS is the Federal agency best 
suited to implement the accreditation provisions of the bill, 
and discuss how we envision the accreditation process working 
once legislation is enacted.
    The purpose of accreditation is to measure an 
organization's compliance with national standards of best 
practice. The Hague Adoption Convention requires that adoptions 
between party states be conducted only by organizations or 
persons that meet certain standards. Intercountry adoption 
services performed in the U.S. under the Convention would be 
covered by accreditation and approval here, while those 
performed in another country would be performed by providers 
accredited by that nation.
    Accreditation and approval are intended to assure that 
agencies and persons operating under the Convention have the 
organizational capacities to perform the functions for which 
they are responsible.
    Accreditation will not replace the process of State 
licensure under which adoption agencies now operate, but rather 
will supplement it where intercountry adoptions under the 
Convention are concerned. It is not our intent to create an 
excessive or burdensome set of rules, but only, as the 
Convention specifies, to establish a sound standard of 
practice.
    The vast majority of States' licensing standards currently 
relate only to domestic adoptions, and therefore, lack the 
means to assure that agencies are knowledgeable about 
intercountry adoptions or their responsibilities under The 
Hague Adoption Convention. In addition, licensing standards 
vary greatly among States, while accreditation standards must 
be consistent in order to assure other nations that we have a 
uniform standard of quality that they may rely on when they 
entrust their children to a U.S. agency and the prospective 
adoptive parents that they represent.
    As you are aware, there has been some discussion as to 
whether HHS or the State Department should be assigned 
responsibility for implementing the accreditation provisions of 
the legislation. While either HHS or the State Department would 
carry out the accreditation function through one or more 
private entities, the responsible Federal agency would need to 
be involved in establishing the accreditation standards through 
promulgation of regulations and in overseeing the accreditation 
process. Because HHS has extensive experience in adoption and 
child welfare issues, the Administration believes that HHS is 
better positioned than the State Department to have 
responsibility for this function.
    As you may know, this Administration, along with Members of 
Congress from both parties, has focused a great deal of 
attention on the issue of adoption over the past several years. 
Within the Federal Government, HHS has primary responsibility 
for carrying out a wide range of programs and activities 
related to adoption. HHS operates the Adoption Assistance 
Program authorized under Title IV-E of the Social Security Act, 
which provides nearly $1 billion to States to operate programs 
of subsidized adoptions for special needs children leaving the 
foster care system for loving homes.
    We are also implementing very successfully the 
Administration's Adoption 2002 Initiative, the goal of which is 
to double by the year 2002 the annual number of children from 
the public child welfare system placed in adoptive homes or 
other permanent living arrangements.
    Our Adoptions Opportunities Program provides $25 million 
per year in grants to public and nonprofit agencies to 
demonstrate a variety of adoption-related services to increase 
the number of children with special needs adopted from the 
foster care system.
    HHS also operates a National Adoption Information Clearing 
house, which, although it specializes in domestic adoption 
issues, does provide information about intercountry adoption. 
Approximately 30 percent of the requests received deal with 
intercountry adoption.
    We fund a National Resource Center on Special Needs 
Adoption, which provides technical assistance and training to 
States. HHS's institutional experience in working with State 
and local agencies involved in adoption will be invaluable to 
our national efforts to establish an accreditation process for 
intercountry adoptions.
    I would now like to address briefly how we anticipate the 
accreditation process being implemented. Once legislation is 
passed, HHS would designate one or more accrediting entities 
and would work with them to develop accreditation standards to 
be established by regulation. Agencies seeking accreditation 
would apply to an accrediting entity which would, through 
visits to the agency's site and examination of their 
established procedures and policies, determine whether or not 
the standards for accreditation are met.
    The accrediting entity would collect fees from adoption 
agencies applying for accreditation to cover the costs of the 
accreditation process. We hope to keep these fees as low as 
possible and to scale them to agency size so they will not 
become burdensome.
    As you are aware, the Convention requires that accredited 
agencies be not-for-profit service providers. But in many 
nations, including the U.S., adoption services are offered by a 
variety of agencies, only some of which are nonprofit 
organizations. Under the Convention, each nation may decide 
whether for-profit entities or persons may participate in 
intercountry work.
    Both your bill and the Administration's proposal allow for 
approved persons as well as accredited agencies to perform 
adoption under The Hague Convention. The Administration 
believes that the qualifications of the agency, not its IRS 
status, should determine whether it is allowed to offer 
intercountry adoption services. Provided a for-profit entity or 
person is able to meet accreditation standards, we do not 
believe it should be barred from operation under The Hague 
Adoption Convention.
    Let me conclude by assuring the Committee that in 
implementing the accreditation provisions of the bill, we 
envision full cooperation with the State Department and the 
Immigration and Naturalization Service to assure that each of 
our activities enhances the process of intercountry adoption 
for children and families.
    Over the past 2 years, as our agencies have discussed 
implementation of the Convention, we have developed a positive 
working relationship. We have taken the time to learn about 
each other's agencies, activities, and organizational culture, 
and have learned about each agency's strengths. We developed 
our proposal with these strengths in mind to best make use of 
the strategic advantages of each agency. We fully expect that 
this positive working relationship will continue as the 
implementation phase of activity begins.
    This concludes my prepared statement. I would be happy to 
answer any questions that you may have.
    [The prepared statement of Ms. Montoya appears in the 
appendix.]
    Chairman Gilman. Thank you.
    We will be continuing right on through the votes. We intend 
to vote and continue without a recess.
    Let me start the questioning, and I am sure my colleagues 
have some questions.
    Secretary Ryan, regarding the new fee collection provisions 
in the bill, I know you have experience with the use of fees 
for consular services. There will be a lag between initiating 
the new office and collecting fees to cover the cost of the 
office.
    Will appropriated funds need to be used to cover the gap? 
Do you have an estimate of startup costs and what is included 
in that cost assessment? Do you have an estimate of the amount 
that will be collected in fees during the first year?
    Ms. Ryan. Mr. Chairman, I will get those answers to you for 
the record.
    We are going to engage in a cost-of-service study which 
will determine the fee, and I am not sure at this point whether 
we will be able to operate just on the fees or whether we will 
continue to need appropriated funds. I would have to get that 
answer to you, sir.
    Chairman Gilman. If you would supply it for us, and we will 
make that part of the record.
    Ms. Ryan. Yes, sir. Thank you.
    [The information referred to appears in the appendix.]
    Chairman Gilman. Does the Consular Affairs Bureau in the 
fiscal year 2001 budget request to OMB reflect the increase in 
the workload and the responsibilities the Department is going 
to have to assume as the Central Authority?
    Ms. Ryan. Yes, sir, it does. We have asked for an 
additional five positions in 2000. If we should be given the 
accreditation function, however, we would need additional 
staff, and we believe that we would have to at least double 
that number. But we have in both the fiscal year 2000 and the 
2001 budget requested additional staff for the Office of 
Children's Issues.
    Chairman Gilman. Have you made that request?
    Ms. Ryan. Yes, sir, we have.
    Chairman Gilman. Will there be any new responsibilities or 
instructions to consular officers working at the overseas posts 
with regard to international adoptions? Who will act as the 
State Department's liaison with foreign governments on the 
convention issues?
    Ms. Ryan. Sir, in anticipation of The Hague Convention, we 
have asked each post that issues visas to identify an officer 
who will be responsible for children's issues and who will be 
responsible for dealing with these cases with us. We will also, 
once the legislation is passed, should it be passed, instruct 
posts as to the new procedures that will be required under The 
Hague Convention. I do not anticipate any problems in doing 
that at all, sir.
    Chairman Gilman. Thank you, Ambassador.
    The American Bar Association has posed that there should be 
a requirement for a nationwide criminal background check for 
foreign persons adopting American children. Do you have any 
thoughts with regard to that?
    Ms. Ryan. Yes, sir. I certainly do understand the concern 
of the American Bar Association. I frankly share it, because we 
want to make sure that children adopted from the United States 
are going to loving homes with people who really want them as 
children and who are not engaged in any nefarious practices 
like trafficking in children or anything like that.
    I just do not know how it would be carried out. I think it 
would be very difficult. I am not quite confident about the 
criminal records in a lot of countries, and so it would be a 
difficult process, but I do share the concern that the ABA has.
    Chairman Gilman. Thank you.
    Commissioner Montoya, one last question. Concerns have been 
raised that the cost of accreditation, meeting the requirements 
of the regulations, would unduly hurt smaller adoption 
agencies.
    Has there been any consideration of that problem? Is it 
something which HHS will work with the accrediting entity on? 
Does HHS anticipate some form of subsidy for agencies to 
encourage other organizations to enter the accreditation field?
    Ms. Montoya. Mr. Chairman, as mentioned in my testimony, we 
have looked at this issue regarding the smaller adoption 
agencies and have said that we would scale the accreditation 
fee to the agency size.
    HHS will work in partnership with an accrediting entity to 
ensure that fees do not become a barrier. But we are not 
considering any type of subsidy at this time.
    Chairman Gilman. Thank you, Commissioner.
    Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I only have one 
question. I understand the rationale for conferring the 
accreditation process on HHS. You are correct, Commissioner, 
when you stated that it falls within the gambit of the 
experience and knowledge of your agency.
    But in response to the concern that others have expressed 
in terms of creating an additional bureaucracy, and I would 
pose this question to both the Ambassador and you, 
Commissioner, it is my understanding that HHS in effect 
contracts out the accreditation process to the private sector, 
presumably nonprofit operations, to do the evaluation and the 
assessment.
    Ms. Montoya. Right.
    Mr. Delahunt. Whether it was the Department of State or 
HHS, that process would be exactly the same, so I have reached 
the conclusion that, in fact, there is no additional 
bureaucracy here. In effect, it is just expanding what you do 
domestically into the realm of intercountry adoption.
    Is that a fair statement on my part?
    Ms. Montoya. Yes, it is, sir.
    Mr. Delahunt. Ambassador Ryan?
    Ms. Ryan. Yes, sir.
    Mr. Delahunt. In other words, if there is an additional 
bureaucracy that would be created, it would presumably be 
created within the Department of State by the addition of more 
personnel within a separate division within the Department of 
State to do exactly what the mission or the purpose of the 
accreditation process is.
    Ms. Ryan. That is precisely right, sir. There would be 
great opportunity costs to our doing it, because we have no 
experience. We would have to learn how to do it. We would have 
to have additional staff, whereas HHS already has the staff to 
do it. That is one of the reasons why we are concerned about 
that.
    Mr. Delahunt. Presumably, in terms of tax dollars, the 
expenditure of public moneys would be considerably more if the 
Senate bill were enacted as opposed to the House bill that we 
are presently considering?
    Ms. Ryan. Yes, sir. That is what we think, too.
    Mr. Delahunt. Thank you.
    Chairman Gilman. Thank you, Mr. Delahunt.
    Just a few more questions before we have to break for the 
vote.
    Commissioner Montoya, an important issue that is going to 
have to be addressed is the matter of privacy or openness of 
adoption records, as you have already indicated in your 
testimony. What is the position of HHS with regard to full 
access to these records?
    Ms. Montoya. Mr. Chairman, I would actually have to defer 
for a fuller response on that to my colleague from the 
Department of State. The Department of Health and Human 
Services expects only general information, not identifying 
information about individual adoptions, and therefore privacy 
issues would not apply.
    Chairman Gilman. Thank you.
    I understand that the consortium, The Hague Alliance, has 
prepared standards based on the requirements of The Hague 
Convention. Has HHS started to review these standards? Since 
HHS will be involved with drafting regulations for the 
accreditation process, can you give us an idea of how complete 
these standards are?
    I'm looking for some estimate of how much work is left to 
be done in drafting regulations with respect to the 
accreditation process: 6 months, 2 weeks? What is your 
estimate?
    Ms. Montoya. Mr. Chairman, I have to say that we have not 
fully focused on the pieces that have already been pulled 
together. We are aware of them, and they definitely would 
provide a base from which we would start, which would 
definitely increase our efficiency in being able to move along 
in moving through the process.
    Chairman Gilman. Thank you.
    Mr. Smith of New Jersey will take over.
    Mr. Smith. [Presiding.] Good morning.
    First of all, I want to thank you for your testimony. I 
think this is, again, one of those issues where we can all join 
together and work on what will be a mutually satisfying 
outcome.
    I have read The Hague Convention and was very touched by 
its repeated insistence of the best interests of the child 
language, and I think it clearly does that, and hopefully it 
will be implemented faithfully by the many countries.
    I do have a couple of questions I would just like to pose, 
the first being that the American Bar Association proposes that 
there should be a requirement for a nationwide criminal 
background check for foreign persons adopting American 
children.
    I was wondering if you could tell us what your thoughts 
were on that.
    Ms. Ryan. Yes, Congressman. Thank you.
    I said earlier that I share the ABA's concern. We certainly 
want to make sure that American children who are adopted by 
foreign couples or foreign people are protected and are not 
being taken abroad for criminal purposes.
    I just do not know how we could do it, because a lot of 
countries' criminal records are not as complete or perhaps not 
as honest as ours. I do not know how we would do it. I share 
the concern. I understand the concern, and it is something that 
we are worried about as well. But making it work is something 
that I think will need a lot of time and consideration, and 
also I am not so sure that we will get honest answers, perhaps, 
from criminal records checks in some countries.
    Mr. Smith. Do you have a sense as to how it might be----
    Ms. Ryan. No, sir, Congressman.
    Mr. Smith. Is it something under review by yourselves----
    Ms. Ryan. We will certainly look at it. We will talk to the 
American Bar Association to see what ideas they might have. But 
we are talking about people from any number of countries, not 
just Hague countries or countries that have signed onto The 
Hague Convention on Intercountry Adoption, but any number of 
countries where people may wish to adopt children and may wish 
to adopt American children.
    It is a concern. It is certainly a very legitimate concern 
and one that we share. We would just have to figure out how we 
might do the criminal checks.
    Mr. Smith. I look forward, as that evolves, to have a 
dialogue with you. I think criminal checks, whether it be for 
teachers or for those who are in proximity to children, 
certainly have been in ascendancy with the explosion of 
pedophilia and other kinds of misdeeds.
    Ms. Ryan. Absolutely. It is the same worry that we have.
    Mr. Smith. Let me just flip that. Do you think that 
background checks ought to be applied to American parents who 
are adopting overseas children?
    Ms. Ryan. As I understand it, the American parents go 
through a very thorough home study and review by the adoption 
agencies, so I think that children who are being adopted by 
American parents are protected well by the mechanisms that are 
in place currently.
    Mr. Smith. Is that something that you could at least take a 
look at, because it has been my observation that some home 
studies are extraordinarily well done. Others are less than 
adequate. It all depends on the agency, and it depends on how 
aggressive the individual might be.
    It would seem to me, just like we do, and I fully support 
it, it may seem like a stretch, but like background checks for 
handguns just to make sure that there is no record, there is no 
criminality involved with the person or any kind of mental 
problems, it seems to me when you are thinking of the best 
interests of the child, it would be in the best interests of 
that child that we go the extra mile to ensure, because there 
have been problems, as we all know, with adoption.
    I take second place to no one in supporting adoption. I 
believe it is one of the greatest ways of building a family on 
the face of the Earth, and for helping the child and parent, as 
well as birth mother complete something that is very good.
    Mr. Smith. Let me just ask you, do international adoptions 
compete with adoptions out of foster care?
    Ms. Ryan. What we have seen with international adoptions, 
Congressman, is that people who are adopting internationally 
are looking for infants or very, very young children. Somewhere 
over 89 percent of the children who are adopted from overseas 
are under the age of three or four or something like that, 
whereas children in the United States are older. Also, American 
children who are in foster care often have special needs, and 
parents seeking children from abroad are seeking children who 
have only, perhaps if they have any special needs, very minor 
special needs. So I don't think that there is a real 
competition between American children in foster care and 
children from abroad.
    Mr. Smith. Let me just ask you, in terms of when there is a 
disruption in the adoption case, I know I have worked on a 
number in Russia with my own constituents. We have also, my 
staff and I, and I have actually gone to Romania when Ceaucescu 
failed to work on a number of adoption cases that were pending, 
and very often those kids get lost in the bureaucratic tangle.
    What is your sense as to what happens when there is a 
disruption? Do you think The Hague Convention will help 
mitigate those disruptions?
    Ms. Ryan. Yes, I think The Hague Convention will mitigate 
the disruption. First, it will assure that the child is really 
adoptable before the case can go forward. Second, there is a 
provision for very stringent release of medical information, 
and we will have a panel of physicians on contract, as we do 
now, to us for the medical exams, and those doctors will sit 
down with the parents and go over any medical problems that the 
child might have to make the parents aware and understand what 
they may be confronting in the future with a child who may 
have, separation anxiety or any of the problems that we see in 
children who have been in orphanages in Eastern Europe 
certainly for any length of time.
    So I think that the protections are enhanced even by The 
Hague Convention on Intercountry Adoption over and above what 
we are trying to do now with the way we do it currently.
    Mr. Smith. Mr. Ballenger.
    Mr. Ballenger. Thank you, Mr. Chairman.
    Ms. Ambassador, if I may, let me throw out a personal 
experience that has occurred in an adoption situation in 
Vietnam because of a cousin of mine who happens to be on TV and 
the lady who is the producer of Seventh Heaven, that TV 
program, you may or may not have seen it, but anyhow she was 
having all this trouble. There was a young girl--she went to 
Vietnam with the intent of adopting a young lady. I think she 
was 6 years old. She met the young lady. She did everything, 
filled out all the paperwork, came back to this country, and 
nothing happened. So she went back to Vietnam and she ran into 
a stone wall. She didn't know what it was that was causing all 
the difficulty, but there was nothing she could do. She somehow 
would not be allowed to adopt this child.
    So by this time the child had gotten to be 8 years old and 
she was still trying--she spent close to a hundred thousand 
dollars in an effort to somehow make the arrangements to bring 
this child back to this country. She went to the star of the 
program. He happened to be my cousin. He said why don't you get 
in touch with Cass Ballenger in Congress.
    So this lady got in touch with me and my wife, and we got 
to work on the thing and I would say in a period of 6 months 
with an effort on our part to somehow ease this whole 
difficulty that was going on, eventually we got an Ambassador 
there. It turns out the embassy itself, without an Ambassador, 
was one of the reasons--there were people actually in the 
embassy somehow not wanting children to be adopted and brought 
to the United States. Anyhow, the Ambassador worked out and 
straightened the whole thing out and we got her to this 
country.
    But the difficulty--here is a lady that was perfectly 
qualified as far as I could tell. She now has the daughter. 
They are all getting along fine, and we get pictures and all 
this other stuff about the child, but my understanding is in 
this situation now for adopting children, is anybody in our 
government overseas responsible for the adoption of children?
    Ms. Ryan. Yes, sir. In every consular section in every 
embassy and consulate, that is one of the things that we do is 
to assist parents to adopt foreign children. There is, however, 
a considerable amount of fraud involved in this. There is in 
some countries the buying and selling of children, and I don't 
know the particular case that refers to. It sounds as if that 
woman went through more than she really should have had to 
experience, and so I apologize to you and to her for that. But 
it is possible that there was some suspicion on the part of the 
consular officer that there was something wrong with the 
adoption proceeding, that the child was not really an orphan, 
that the child might have been taken from a birth mother 
against the birth mother's will. I don't know, but those are 
the kinds of considerations that come into play sometimes in 
some countries on adoption, and I think that The Hague 
Convention will ameliorate those problems because the child 
will be identified early on as being adoptable and also being 
able to come into this country, and so there shouldn't be any 
further problem like that.
    It is one of the most satisfying things that we do as 
consular officers, is to issue an immigrant visa to a child who 
is being adopted by American parents. I find that frankly, sir, 
one of the most moving and one of the most rewarding things 
that we do as consular officers, and so I apologize for the 
delay and the problem that that woman had.
    Mr. Ballenger. I haven't had the same difficulty in 
Honduras, where it turns out the Honduran government is well 
organized as far as helping friends, that we just happen to be 
very involved in Honduras.
    But let me ask you a question. If the State Department and 
the embassy and the consular people are the ones that are doing 
the job now, what changes would our bill do to that? Since they 
are the ones on the ground, how could somebody else do it?
    Ms. Ryan. It wouldn't change that. They would still 
continue to do it, but what it would do is to ensure that the 
child is in fact adoptable as the process begins instead of 
having a couple or a parent, would-be parent going to a 
country, finding a child that they bond with and that they want 
and then coming in to us and finding that there is some problem 
with the fact that the child is not really an orphan or that 
the child has been taken from a birth mother. Those kinds of 
things are what happens. That is what we are trying to get at 
with this Hague Convention, to eliminate that, to ease that 
terrible sorrow that people have if they have found a child 
that they think of as their own, that they desperately want, 
and then we are the ones to tell them that, no, the child is 
not adoptable because the child is really not an orphan or the 
surviving parent has not agreed to allow the child to be taken 
abroad.
    All of those kinds of considerations come into play, and 
that is what we don't want.
    Mr. Ballenger. Who would then be responsible to get that 
information?
    Ms. Ryan. That would be done under The Hague Convention and 
part of the whole process as the agencies are accredited, as 
the American parents come to those agencies and want to adopt 
in a Hague country, then the whole process begins way in 
advance of their going to the country and finding a child on 
their own.
    Mr. Ballenger. But would we have to build a whole new 
system?
    Ms. Ryan. No, sir. It would be all part of it. We can do it 
with what we have in place now.
    Mr. Ballenger. I sure hope--like I say, I had excellent 
working relations in Honduras as far as helping people get to 
the right people and get the adoptions done, but I have never 
had any problem as great as the one we had in Vietnam, and I 
think if we had not had--the Ambassador finally came and he 
used to be a Congressman, so I knew him. If it hadn't been that 
situation, I don't think we would have ever been able to do it, 
namely, because somebody in our embassy there was against 
having this child adopted. I don't understand it.
    Ms. Ryan. I don't understand that, and I will be happy to 
look into it.
    Mr. Ballenger. Just pose that problem to that embassy and 
say, the Congressman asked why did we have so much trouble.
    Ms. Ryan. I will.
    Mr. Ballenger. Thank you, sir.
    Mr. Smith. Thank you, Mr. Ballenger.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I want to use this 
opportunity to ask the Ambassador about a situation in Costa 
Rica where both American and Costa Rican courts have awarded 
custody to the American father, and yet the law enforcement 
authorities in Costa Rica seem not to be following the dictates 
of either court. Have you had similar problems in Costa Rica? I 
realize this relates more to the custody issue, which you face, 
but it is not the exact purpose of these hearings here today, 
but I would like you to address that.
    Ms. Ryan. Yes, sir, we have had difficulty with Costa Rica 
over the return of children. Even when the courts have 
determined that the custody should go to the American parent, 
we have not been able to get the legal mechanism to kick in 
that will deliver the child to the American parent. It is one 
of the problems that we are dealing with with The Hague 
Convention on International Child Abduction. It indicates to us 
that that convention is not working the way we believe that it 
should work, and we are going around to all these countries 
where this kind of thing happens to try to get them to 
understand what their obligations are under The Hague 
Convention on International Child Abduction and working 
particularly with Costa Rica because Costa Rica I think is on 
the verge of signing that Convention, if they have not already 
done so. But Costa Rica has been one of the more difficult 
countries.
    There are any number of cases like that. I don't know the 
one particularly you are speaking of, but we have had very 
great difficulty. We are going to hold a conference in this 
country next year with countries like Costa Rica that are not, 
in our minds, fulfilling their obligations under the treaty, 
first for us to try to understand what the problems that that 
country confronts are, and also to get them to understand how 
we see and how we believe The Hague Convention actually is and 
to get them to fulfill their obligations under the law.
    Mr. Sherman. Ambassador, my concern is that while you would 
be working very hard on these issues, and I admire your 
efforts, that this is somehow a stepchild literally in the 
State Department. We have had the Administration recommend that 
Costa Rica be eligible for special treatment under CBI, the 
Caribbean Basin Initiative. Before that decision was reached, 
was there any consultation with you as to whether Costa Rica or 
any of the other countries were adhering to international 
standards with regard to child abduction or do we just not care 
about child abduction when we pass out tremendous economic 
benefits?
    Ms. Ryan. Sir, child abduction, at least as far as my 
bureau is concerned, the Bureau of Consular Affairs and the 
Office of Children's Issues within that bureau, that issue is 
not a stepchild for us. That is center.
    Mr. Sherman. I know it is very important for your 
Department, but is your whole Department a stepchild when it 
comes to things that are important to Costa Rica's economy, 
such as the Caribbean Basin Initiative? Were you consulted 
before the Administration proposed including Costa Rica in the 
Caribbean Basin Initiative?
    Ms. Ryan. No, sir, I don't believe we were directly 
consulted.
    Mr. Sherman. I don't think children are going to be 
protected until your Department is consulted before we award 
important benefits in the diplomatic and economic sphere, and I 
look forward to you being consulted on more of the big headline 
trade and international agreements.
    Thank you, Mr. Chairman.
    Mr. Smith. Dr. Cooksey.
    Mr. Cooksey. Thank you, Mr. Chairman. We appreciate your 
being here to testify today, Ms. Ryan. Let me ask you, what are 
the major obstacles to implementing this Hague Convention as 
you see them today?
    Ms. Ryan. I don't see any real obstacles. If the Congress 
ratifies the treaty, I don't see any problems with our ability 
to carry out the provisions of the Convention, sir.
    Mr. Cooksey. Do you feel comfortable with the way it is 
written? Do you feel that most of the potential problem areas 
are anticipated and solved with the Convention as it is written 
today?
    Ms. Ryan. Yes, sir, I do.
    Mr. Cooksey. Let me ask you this, in this country I know 
Americans that have tried to adopt American children, and they 
end up putting a lot of money into the system and spending a 
lot of time and going through a lot of frustration, and quite 
frankly, it seems that a lot of it goes to lawyers and legal 
fees and so forth. How much of the problem with adopting 
children from other countries, international children, is 
related to problems with the, say, the legal profession, or 
people that are involved in the process on this end of the 
adoption process? Some of the obstacles that are involved in 
adopting American children by Americans, do they exist with 
Americans adopting international children?
    Ms. Ryan. The process is a very, I think a very trying one 
for the parents who want to adopt a child, because they have 
gone through so much perhaps trying to have their own children 
and not being able to and perhaps trying other adoptions that 
might have failed, and so it is a very time consuming and very 
emotional process. I am quite sure that nobody is trying to 
make it more difficult for people who want to adopt children, 
but there are certain things that they must, the parents, that 
is, some certain standards that they must meet, the home study, 
finding a reputable adoption agency, working with perhaps a 
lawyer in the foreign country to ensure that the child is 
legally adoptable. In some cases, unfortunately, and in some 
countries, some of these lawyers are not reputable and are 
actually trading in children, which makes it that much more 
difficult for the parents who go into this in all good faith.
    I am not sure that I really understand your question, but I 
don't think that it is any more difficult for parents adopting 
abroad except getting and understanding the culture and some of 
the problems that the child may have faced in the early part of 
his or her life. We have seen all of these stories about 
children in Eastern Europe, some perhaps even in China, where 
they are institutionalized and where the staff is not 
sufficiently large enough to give them the attention that they 
need as small children, as babies, and so what difficulties 
they may have as a result of that as they are growing up, all 
of those kinds of considerations come into play I think more so 
overseas than in the United States.
    Mr. Cooksey. Good. Thank you. Another quick question, has 
the INS been able to work in a relatively efficient manner, 
expeditious manner in accomplishing these? Are they a problem 
and obstacle in this area?
    Ms. Ryan. No, sir. We work very closely with the INS on 
adoption issues, and I think that they have been very 
responsive and very responsible.
    Mr. Cooksey. Good. Thank you.
    Thank you, Mr. Chairman.
    Mr. Brady. [Presiding.] The Chair recognizes Mr. Burr.
    Mr. Burr. I thank the Chairman. The great thing about this 
is that even with competing bills, we are all headed to the 
same end.
    It is unfortunate that, in my particular case, I look at it 
one way, many on the Committee and in the House look at it a 
little bit differently, but I also try to take into 
consideration the scope of my involvement with HHS on the 
Commerce Committee and a better understanding of the scope in 
total of what is before HHS.
    Let me ask you, Commissioner Montoya, you highlighted in 
your statement under the accreditation experience because HHS 
has extensive experience in adoption. Tell me what extensive--
or experience HHS has in international adoption today.
    Ms. Montoya. Congressman, that is not an area that HHS has 
been involved in per se because what happens is parents decide 
to adopt and will usually go either directly or through an a 
private agency to adopt a child internationally. So, at this 
point in time, we have not had involvement with international 
adoption.
    Mr. Burr. International child smuggling?
    Ms. Montoya. No, sir.
    Mr. Burr. Any experience there? International child 
abduction?
    Ms. Montoya. No, sir.
    Mr. Burr. How about the State Department, Ambassador Ryan, 
experience?
    Ms. Ryan. Yes, Congressman, we do have experience in 
international adoption, and we do unfortunately have experience 
with international child abduction.
    Mr. Burr. If, take for a minute that the bill were passed 
and HHS were given the responsibility for accreditation, State 
Department would continue to facilitate their role on the 
ground of helping the adoption process work smoothly. Who would 
be responsible for oversight of the accredited companies?
    Ms. Montoya. Congressman, that would fall to HHS.
    Mr. Burr. So HHS would accredit these agencies, they would 
have oversight of the agencies, and the State would be the one 
that worked intensely on the movement of children from 
countries to families?
    Ms. Ryan. Right.
    Mr. Burr. So given that you would have the oversight 
responsibilities then, how would you know whether it is 
working? Would you be relying on what information State 
supplied for you?
    Ms. Montoya. No, Congressman. What would happen under this 
accreditation process is that we would designate one or more 
accreditation entities that have the experience and have been 
working in this area of accreditation in the area of adoptions.
    Mr. Burr. But wouldn't you have oversight responsibility 
over that agency that you accredit?
    Ms. Montoya. Right.
    Mr. Burr. How would you know if they are doing their job? 
How would you know if they are doing a good job?
    Ms. Montoya. What we would do to support our oversight 
responsibility is to have things put into our contracts with 
them that indicate reporting mechanisms, so that they would let 
us know what they are doing. There might also be an on-site 
visit and frequent discussion with them, those types of things. 
It is not something we could contract out and then just forget 
about.
    Mr. Burr. No, but I think it is real important to determine 
up front as we talk about what the appropriate agency is to 
look at who ultimately has oversight responsibilities on the 
function of adoption, and I would contend to you that we will 
be relying on the State Department to facilitate these 
intercountry adoptions, and in fact, there is no one better to 
know how the process is working than the State Department 
officials who are on the ground. Given that I believe both of 
you would go through the same process of choosing an agency for 
accreditation, when we look further down the line and look at 
oversight, clearly I think the State Department is in a better 
position to determine whether the functions are happening like 
they were designed to, whether we have a problem with 
accredited agencies. HHS is going to be relying on the reports 
that the accredited agencies are going to turn back in to HHS, 
the same reports that I question often whether anybody reads in 
other parts of HHS.
    Ms. Montoya. Congressman, the other piece, though, is that, 
as was mentioned, that currently the State Department is 
involved with the international adoptions, but HHS has the 
experience and has the responsibility for child welfare and 
adoption. So from that perspective we have been working in this 
area and have the expertise already in place as we move ahead 
to start working on pooling together the information of the 
standards for accreditation and in moving ahead with the 
regulation that would have to be promulgated.
    Mr. Burr. Mr. Chairman, I would ask unanimous consent for 
two additional minutes.
    Chairman Gilman. [Presiding.] Without objection.
    Mr. Burr. So HHS has a wealth of knowledge about how to set 
up the criteria for accreditation, is that what you are saying?
    Ms. Montoya. We have the experience having that 
responsibility in this country, yes, sir.
    Mr. Burr. Is there any reason that that wealth of knowledge 
couldn't be shared with the State Department and let them still 
be the accrediting agency and department and be responsible for 
oversight?
    Ms. Montoya. Sir, what would then have to happen is that 
there would have to be an additional step, actually, because 
then they would have to be coming to us for that experience and 
expertise.
    Ms. Ryan. If I might, Congressman, that is the opportunity 
cost, because we would have to learn how to do it, and it would 
take us a while to learn how to do it, whereas HHS already 
knows how to do this, and they have the network in place 
already because they are already accrediting, and we have never 
had a domestic responsibility because we are a foreign affairs 
agency, and so, yes, certainly we can do it, we will be able to 
do it, but it will take us much longer to get started doing it 
and getting it up and running the way it would work in HHS from 
the start. So I think that we conceivably are disadvantaging 
American citizens who are anxious to adopt children 
internationally.
    Mr. Burr. Let me suggest to you, Ambassador, that in fact 
we are not here talking about domestic adoption, that we are 
here talking about international adoption, and when you weigh 
it, the experience for international experiences lies in the 
State Department. Yes, I believe that HHS has some statistical 
information that might lead one to set up the guidelines for 
accreditation. I don't think that is too tough to share, too 
long to learn, too tough to work hand in hand with, but the 
question is who ultimately is responsible to make sure that the 
program runs correctly, the person closest to it, the agency 
closest to it, the one who actually has individuals around the 
world who face those real people who are trying to place 
children in homes or the individuals in Washington who have all 
the statistics but aren't there to see the real life.
    This is clearly a fundamental difference. I shared it with 
the Chairman at the beginning, and I shared it with my good 
friend Mr. Delahunt, even though he and I are on totally 
different ends. If everything worked perfect at HHS, I might be 
one that looked at it and said, gosh, here is a great way to 
expand. My fear is that with the experience, we are 3 years 
away from HHS running the adoption process domestically. I 
think that is a very dangerous thing that I want to make sure 
stays in the hands of the States for the most part where they 
have that jurisdiction today.
    I want to thank the Committee and the witnesses for their 
willingness, and I would yield back.
    Chairman Gilman. Thank you, Mr. Burr.
    Mr. Delahunt.
    Mr. Delahunt. Yes. Thank you, Mr. Chairman. I will just 
take a minute, and I am pleased to hear that my friend and 
colleague from North Carolina has implicitly endorsed the high 
quality of the Department of State. I hope you have taken note 
of that.
    Ms. Ryan. I did take notice.
    Mr. Delahunt. Please convey it to the Secretary. She will 
be very happy to hear that. But my question seriously is to the 
Commissioner. I think it is important for Members of the 
Committee to hear how you currently go about the accreditation 
process. If you could just give us a minute overview in terms 
of what the process is that you currently execute of 
accreditation and how that would carry over into the 
international area.
    Ms. Montoya. Yes, Congressman. What we look at when we are 
looking at the whole accreditation process is that we are 
setting the standards or the bar for good social work practice, 
and that there is good ethical practice in what is being done, 
and so what has happened is we have set up the guidelines for 
that and then contract with agencies out there that have 
actually had the experience of doing accreditation, and then 
they are the ones that are actually pursuing it.
    Mr. Delahunt. In other words, you set the standards and 
then you contract out and the agencies that you contract with 
ensure that there is compliance with the standards that have 
been promulgated by HHS?
    Ms. Montoya. Yes.
    Mr. Delahunt. Presumably your oversight and your monitoring 
is in continuing consultation with the contractees.
    Ms. Montoya. Congressman, excuse me, let me actually 
backtrack on that. Actually, we are not doing current actual 
accreditation in the adoption area right now. The Department 
has experience in other arenas with accreditation, but we are 
not actually accrediting adoption agencies. So, excuse me, I 
misspoke in that area.
    Mr. Burr. Would the gentleman yield?
    Mr. Delahunt. I would be happy to yield.
    Mr. Burr. Let me go back to an area you and I just 
discussed then. What experience, as stated in your opening 
statement, do you then bring to the accreditation of adoptions?
    Ms. Montoya. Congressman, what ACF and what HHS brings to 
this is that we have had the responsibility for child welfare 
and adoption and the experience in dealing with the child's 
well-being in this country. So, again, all the experience that 
we have had in working with issues of children and families, 
particularly those involving children in the child welfare 
system, is the experience that we bring. It is that 
understanding and then also then having had the experience of 
dealing with accreditation through other parts of our 
Department.
    Mr. Burr. I think Ambassador Ryan was concerned with the 
State's curve up in education of learning this, and in fact, 
with the exception of accrediting other areas, HHS doesn't have 
experience with accreditation currently of adoption, do they? 
You start at the same point, am I correct?
    Ms. Ryan. Sir, we have no experience whatsoever with 
accrediting anyone in any way. I don't think we are really 
starting at the same point. HHS does have accrediting 
responsibilities, if not in the adoption field, in the health 
field, and so they have the experience. They know how to do it. 
We don't. We would have to learn how to do this.
    Mr. Burr. But you do know how to facilitate children being 
adopted and actually moving through the process, which I would 
tell you is a much greater experience that I would look for in 
the process. I want to go back, and then, Mr. Chairman, I will 
yield back the balance of my time.
    Mr. Delahunt hit on a very important thing and that is the 
process, that you are going to rely on an agency to do the 
accreditation, to be responsible, to make sure that everything 
is done like it is supposed to meet the standards, the 
guidelines that HHS has set. Who is responsible to know whether 
adoptions are taking place? There is a big difference between 
does the system work and are we adhering to the rules and the 
regulations that we design. Who is responsible for that under 
the HHS model?
    Ms. Montoya. Under the HHS model you are talking about for 
U.S. adoptions or international--you are talking about U.S.?
    Mr. Burr. I am talking about intercountry. You are going to 
find a company that you are going to license with a credit, you 
are going to give them the standards, the rules, the 
regulations. You are going to say, it is your job to make this 
happen and to make sure that everybody is compliant, right? 
That is what you said to Mr. Delahunt.
    Ms. Montoya. Yes, sir.
    Mr. Burr. Whose concern is it as to whether adoptions are 
taking place?
    Ms. Montoya. I would believe that the way the bill is 
currently written, HHS only has the role of the accreditation 
and not actually dealing with the individual adoption process.
    Mr. Burr. The answer is nobody?
    Ms. Montoya. I would defer to the State Department.
    Ms. Ryan. We have an analogy I think, Congressman, on 
refugees and refugee programs, where we do the international 
part of that refugee work and HHS does the domestic services 
for refugees who come to this country. So I think that the 
sharing of responsibilities already exists, and we have over 
the past 2 years of working on The Hague Convention and the 
implementing legislation, developed a very effective working 
relationship with HHS, and I think that they are better 
equipped to do this work.
    We would continue, obviously, to do the work that we do on 
actually issuing the visas to the adopted children and having 
the children come to the United States, but the accrediting of 
the agencies, I think, is better in the hands of a domestic 
agency than an international agency.
    Chairman Gilman. Gentleman's time has expired.
    Mr. Brady.
    Mr. Burr. Don't understate your experience and your good 
work. I thank the Chair.
    Chairman Gilman. Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman. I appreciate your 
leadership on this issue. I appreciate the hard work that has 
been done to try to meet our commitments and implement The 
Hague Convention on Intercountry Adoption, and I want to be a 
help in this process.
    I have a couple of concerns that I hope can be addressed, 
and it comes from the standpoint that I want to encourage more 
of these intercountry adoptions. I want to make sure that 
parents get it done right, that the adoption is permanent, and 
that it is strengthened through the process. My own experience 
is very limited, serving on the state legislative committee 
dealing with adoptions, being an adoptive parent myself. My 
wife and I also chose to begin an international adoption. So we 
have done the homework and met with about 50 couples that have 
adopted internationally.
    So my concerns are these. Anytime we certify in the effort 
to illuminate abuses, it is tempting to create a process that 
tends to set a barrier to access, where only some agencies can 
meet certification. While small practitioners, faith-based 
organizations who do it as part of their missionary work, for 
example, are driven out of the process, and I know at the State 
level in almost every instance where we have really taken a 
hard look at adoption, we found that the number of the drivers 
of the cost have been ourselves. In our efforts to try to make 
sure every adoption is perfect, we find we also have driven a 
lot of very good families out of the adoption process.
    So here are some thoughts. First, I think State Department 
has far too much on its plate as it is. We need more resources 
for you in other areas. I have not had as much experience with 
HHS, but it makes sense that you play the key role here. I am 
concerned that we don't have enough accrediting entities in 
this legislation. There were some 15,000 adoptions last year. I 
am sure it is rising. Five does not seem adequate, because the 
worst thing in the world would be to have a date certain for 
the implementation of this to have agencies who have good track 
records and parents who have been waiting 2 or 3 years who have 
children they are ready to adopt and because we don't have 
enough accrediting agencies out there and working, that that 
adoption might be held off for that family or an agency just 
may not be able to get through the funnel in time. I think we 
need to have as many accrediting agencies as needed to 
implement by the date certain the time this goes into effect.
    I am concerned that the paperwork and the standards are 
either redundant or will drive up the costs in different ways, 
and again, choosing an international adoption process 
ourselves, we found a good agency after a long search. It cost 
about $20,000 to start the process, but since then we have also 
met couples who have had success through smaller, private 
practitioners or faith-based organizations where a local 
church, as part of their missionary work, once or twice a year 
have a child who needs adoption, and they arrange it and they 
are much more affordable because, obviously, it is ancillary to 
their work. But they have good relationships and make it work 
at a much smaller fee, and my concern is we will drive them out 
of doing good work because of the burdensome paperwork and 
accreditation process.
    The registry to me does not seem to be necessary. I think 
while it is important to know--back to accreditation, as we 
know from licensing doctors, attorneys and other professionals, 
accreditation and licensing itself doesn't guarantee a quality 
practitioner. What is more needed I think for families looking 
to adopt is, in effect, a credit bureau for international 
adoption agencies where we can look at the experience of those 
agencies, where we can find out from real people who have been 
part of it, rather than a registry that, even though it starts 
out confidential, we know ultimately will be public. I think we 
would do better to focus on providing more information, more 
knowledge to potential parents rather than creating a higher 
bar or more costly bar that doesn't provide us with the type of 
quality information the parents need when choosing that 
adoptive agency.
    My other concern, is on those who were looking to adopt 
outside of America, it seems to me that the requirements of the 
12-month waiting period are absolutely unnecessary. I think 
requiring a married couple to be the ones adopting on the other 
end misses a whole group of people. After my dad died, my mom 
raised five of us by herself. Now, if she moved to Ireland, 
agreed to adopt a child from here, a friend of somewhere, I 
can't imagine someone saying she is not a qualified parent, and 
I think there are a lot of very good families out there that 
don't happen, in this case, widowed or single or whatever the 
situation is, I think would be very good--I think best interest 
of the child ought to be the standard we use. I don't know what 
problem we are really trying to solve there from my standpoint.
    So I will stop at this point to just say I am concerned 
that we are going to drive up costs, drive out opportunities 
and people, especially the small practitioners, and we are 
going to discourage rather than encourage adoptions, and 
because I know, knowing Chairman Gilman and the approach he 
takes, this is so important. We want to do it right. I would 
like to be part of the process to make sure whatever we do 
implement ultimately helps rather than harms.
    Ms. Ryan. Yes, Congressman, that is exactly what we want, 
too. We share your concern on the 12-month waiting period, 
because if we instituted it here for American children to be 
adopted abroad, other countries will do that and that will 
disadvantage American parents who want to adopt a child, and on 
the other point that you made, which was----
    Mr. Brady. Accreditation.
    Ms. Ryan. On the accreditation, I can't speak to. The 
Commissioner can speak to that, but there was one other point.
    Mr. Brady. Cost.
    Ms. Ryan. The whole purpose of The Hague Convention is not 
to make it more difficult for people, single parents. That is 
what you were talking about. We also think that all the 50 
States allow a single person to adopt children, and we would 
not want to see any change in that. We think that the States 
should be able to determine who adopts, and we also think that 
single parents should be able to adopt if they pass all the 
background investigations and all of that.
    Mr. Brady. Do we have anything in this legislation dealing 
with age, because I have found that some countries are real 
restrictive on age, and being an old father myself, we 
discovered that we weren't eligible for a number of countries 
in looking at adopting, and while at times I feel old, I think 
we provide a pretty good family for children. The concern is 
not to get into a reciprocity, but is there a way, and again, 
to encourage more adoptions here, is there a way to encourage 
more countries to lift what may be old fashioned or outdated 
age limits on adoption?
    Ms. Ryan. We have tried, and we continue to try to do that 
by discussing with those countries our concerns about age 
limits, and many countries tell us that they are looking to see 
what we do with The Hague Convention, and so they will follow 
our lead, and that will be one of the points that we will use 
with them to see if they really are sincere in following our 
lead because we don't have any restrictions like that in your 
legislation, or in the Administration's proposal. So if that 
passes as written, that is what we will be talking with them 
about, trying to get them to do exactly what we have done.
    Chairman Gilman. Gentleman's time has expired. Thank you, 
Mr. Brady.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you very much. Just a few brief 
questions. I met some constituents yesterday, or the day before 
yesterday. One of the things they said was important was to 
have a mandatory disclosure of all fees involved in the 
adoption process so that those fees were made public. They 
worried obviously that we were creating additional layers of 
bureaucracy. They worried that the present process, oftentimes 
after you adopt there is a nightmare to get the visa for the 
child you just adopted into the country. Beyond that, they said 
that, in some States, they have had--obviously this is not your 
issue--trouble changing their child's name to the parent's 
name. They also said that it is a complicated system to make 
them citizens. What they were suggesting is that there ought to 
be a process by which, once you adopt a child, if you are an 
American citizen, they ought to become citizens automatically.
    One of the things they said is that some people in the 
State Department were worried that parents could change their 
mind and then leave the child and then there would be an 
American child behind. I thought that the easy fix there would 
be that you could simply say that within 6 months of returning 
to the United States with an adopted child the process be 
automatic. So parents don't forget and Congress passes some 
crazy laws that say if you end up on welfare for a weekend we 
throw you out of the country, and 30 years later somebody is 
getting energy assistance and being deported because their 
parents forgot to make them citizens.
    So do you have any problem with having some provision in 
the legislation--we may have to do this through another 
Committee--that would make citizenship automatic over, say, a 
short period of time?
    Ms. Ryan. Congressman, no, but it is the Immigration and 
Naturalization Service that does citizenship. There is a 
gentleman here, Mr. Cuddihy, who is prepared to talk on that if 
you so wish. I think that State Department would like to see 
that, as long as it doesn't disadvantage American citizen 
parents with natural children, as long as it doesn't make a 
distinction between kind of an automatic naturalization for an 
adopted child, but that if you were an American citizen 
recently naturalized, have a child abroad and can transmit, 
that your child also--it would be those kinds of considerations 
that we would want to see in any bill that might be developed, 
but I think Mr. Cuddihy is here if you would like to hear from 
him.
    Mr. Gejdenson. Love to hear from him.
    Chairman Gilman. Mr. Cuddihy, would you please identify 
yourself and your title.
    Mr. Cuddihy. My name is Joseph Cuddihy. I am with the 
Immigration and Naturalization Service, and I am currently 
working in Washington, D.C., on a temporary assignment in the 
Office of Immigration Services Division, which has 
responsibility for the processing of numerous immigration 
applications, including applications for adoption.
    We, too, share the panelists' concerns and interests in 
this entire process. We are very willing to work with members 
of the staff, Members of the Committee, to look at the process 
of naturalization as it occurs now, and to see where some 
activities can occur that would make the process more 
transparent. We know some of the concerns that are inherent in 
this, and anything that we can do along the line to assist in 
the naturalization and the citizenship process, we are very 
willing to meet and try to discuss and work out.
    Mr. Gejdenson. Do you have any problem with saying if you 
have two American citizens, they adopt a child from whatever 
country you pick, they come back to the United States, the 
adoption has gone through, the child is living with them now 
for 6 months, that it should be automatic that the child 
becomes a citizen, and if the parents fail to register or 
whatever they are still citizens?
    Mr. Cuddihy. We want to be careful to make sure that we 
look at all sides of the issues, particularly with the rights 
of the children and the parents' desires. I would be a little 
concerned with something of that nature that a parent might 
want, for whatever reason in his or her own mind, that child to 
keep the citizenship of their adoptive country, whether it be 
for cultural reasons or natural reasons, and for that reason, I 
think we would want to take those kinds of considerations.
    Mr. Gejdenson. Fine. So you could easily provide an option 
so they could choose whether to be binational, but I think the 
fear here is that parents come back very excited, they are 
focused on this child, not on the bureaucracy. They are 
American citizens. This child has been adopted. You wouldn't 
have any problem if, within the options that are presented to 
make sure that there is no legal hassle later, there is an 
automatic process that makes them a citizen?
    Mr. Cuddihy. We would have no objection to a process----
    Mr. Gejdenson. Providing they were given guarantees that 
they could keep binational citizenship and everything else?
    Mr. Cuddihy. That is correct, and we recognize the issues 
and the concerns that you have, that through some lack of an 
administrative process that has taken place someone ends up in 
a position where, in fact, they are subject to deportation laws 
of the United States.
    Mr. Gejdenson. Great. I think one of the examples was that 
a kid gets caught with some drug or something in college, and 
next thing you know they are being deported because somebody 
didn't file the right papers. It is a terrible thing, they 
ought to pay the penalty, but they should pay the penalty as 
any other American citizen would.
    Mr. Delahunt. Mr. Gejdenson, may I just make a comment that 
when I adopted my daughter I think it was a 3-year wait before 
she could become a citizen, and I found that personally 
offensive, and there ought to be an option. I can appreciate 
these circumstances that you describe where it might be a 
choice by the parent to delay, for whatever reason, I can't 
really imagine, but it is my belief that once an adoption is 
finalized in this country, that that child should be a citizen.
    Chairman Gilman. Thank you, Mr. Delahunt, Mr. Gejdenson, 
and I want to thank our panelists for their patience, and for 
providing valuable input on this issue. We will now proceed to 
the next panel.
    We welcome the five panelists who are here today from all 
over our Nation. First, Dr. Jerri Ann Jenista is testifying on 
behalf of the American Academy of Pediatrics, where she is the 
adoption representative of the Academy's Committee on Early 
Childhood Adoption and Dependent Care. She is also the 
Chairperson of the same committee for the Michigan state 
chapter, the Academy of Pediatrics. A practicing pediatrician 
in Ann Arbor, Michigan, Dr. Jenista specializes in infectious 
diseases, emergency medicine and in the medical care of adopted 
and immigrant children. She is the Editor of Adoption Medical 
News, a monthly newsletter for adoption and health care 
professionals on the medical issues of adopted children. Dr. 
Jenista is also one of the organizers of the Adoptmed Group, a 
coalition of 200 health care practitioners who are involved in 
the medical care of adopted children. Her current research is 
in the pre-adoption evaluation of medical records and the 
education of parents on the issues of children adopted from 
institutional care. Dr. Jenista is a single parent of five 
adopted children, three of whom have special needs, and she 
still has time to come to Washington to give us the benefit of 
her thinking. We thank you for being here.
    Ms. Susan Freivalds is the Coordinator of The Hague 
Convention policy for the Joint Council on International 
Children Services, the oldest and largest affiliation of state-
licensed not-for-profit child welfare agencies servicing 
children through intercountry adoptions. As the Coordinator, 
Ms. Freivalds has led the effort to assure workable 
implementation of The Hague Convention on Intercountry 
Adoption, including defining standards and procedures to 
accredit agencies to work in intercountry adoption. She was a 
Member of the U.S. delegation to the treaty negotiations at The 
Hague that produced The Hague Convention of interest to us 
today. She holds degrees from the University of California--
Davis, and Georgetown University. She is also an adoptive 
parent.
    The Committee also welcomes David Liederman, the President 
and CEO of the Council on Accreditation of Services for 
Families and Children. Founded in March 1977, COA is an 
international, not-for-profit standard setting accrediting 
agency. Mr. Liederman has a long career in child welfare. He 
most recently was the Executive Director of the Child Welfare 
League of America. He has been recognized for his years of 
service by numerous awards, such as the 1999 Award for 
Excellence in National Executive Leadership for the National 
Assembly and the 1997 National Lifetime Achievement Award for 
the National Association of Social Workers. He holds degrees 
from the University of Massachusetts in Amherst and the 
University of Pittsburgh. He has also served on the faculty of 
the Yeshiva University in New York and in Boston. We welcome 
Mr. Liederman.
    I am pleased to welcome from New York, Mr. Sam Pitkowsky, a 
Vice President of the Adoptive Parents Committee. The Adoptive 
Parents Committee is a parent support group that provides 
education information to prospective adoptive parents and 
adoptive parents and has over 2,500 member families in the tri-
state area. Mr. Pitkowsky is an adoptive parent of two 
children, and has been involved in the Adoptive Parents 
Committee for many years. We welcome your comments, Mr. 
Pitkowsky, on behalf of your membership and your personal 
experience. We welcome you to the panel.
    We also welcome Ms. Kathleen Sacco of Connecticut. Ms. 
Sacco is an adoptee from Korea and has been good enough to join 
us today to provide her views as an adoptee and also from her 
professional experience as an adoption social worker for the 
Family and Children'S Agency. Her work has involved assisting 
and educating families adopting both domestically and 
internationally.
    So we thank all of our experts who are part of this panel 
for taking time out of your busy schedules to be able to 
provide us and share with us your experiences.
    Please proceed, Ms. Freivalds, and if you would summarize 
your statements. We will make your full statement part of the 
record since we are running out of time. Please proceed.

STATEMENT OF SUSAN FREIVALDS, HAGUE COORDINATOR, JOINT COUNCIL 
              ON INTERNATIONAL CHILDREN'S SERVICES

    Ms. Freivalds. Thank you, Mr. Chairman and Members of the 
Committee. We want to thank you for holding these hearings to 
explore how the United States might best implement The Hague 
Convention, and for giving me the opportunity to address you. I 
have submitted a prepared statement for the record and will be 
summarizing it in this oral presentation.
    As you mentioned, I am the Hague Convention Policy 
Coordinator for the Joint Council on International Children 
Services. That is the Nation's oldest and largest affiliation 
of state-licensed, not-for-profit child welfare agencies that 
provide services to children through intercountry adoption. The 
Joint Council has 130 member agencies and provides services in 
an estimated three-quarters of all intercountry adoptions to 
the United States.
    I was a Member of the U.S. delegation to the meetings at 
The Hague that prepared the Convention in 1992 and 1993, and I 
am also the lucky mother of a daughter adopted from Korea as an 
infant 24 years ago.
    The Joint Council calls for U.S. ratification of The Hague 
Convention. We believe that the Convention provides many 
benefits and that its goals of cooperation and safeguards are 
not only laudable but also necessary to the continuation of 
intercountry adoption as a means to provide homeless children 
overseas with new, permanent, loving families.
    The Joint Council supports enactment of legislation that 
will enable the United States to implement the Convention in a 
manner that will allow intercountry adoptions to proceed 
ethically and expeditiously. We feel that H.R. 2909 is such 
legislation, and we endorse its passage. We salute the authors 
for their hard work and spirit of compromise that has produced 
this bipartisan bill that the adoption community can embrace.
    H.R. 2909 has been written with a minimalist approach to 
implementation of The Hague Convention. It rightfully addresses 
only the implementation of the Convention and does not attempt 
to impose any conditions or corrections of adoption law or 
practice that are not required by the Convention.
    While Joint Council endorses H.R. 2909, I would like to 
comment on several of its provisions. First, it is always in 
the best interest of children that there be a large pool of 
prospective parents from which to choose the most appropriate 
ones for any child. H.R. 2909 rightfully does not place 
restrictions on appropriate adoptive parents. Specifically, 
single persons are a very important resource for children 
without families and Joint Council would oppose any legislation 
that limits their participation in intercountry adoption.
    Additionally, H.R. 2909 appropriately exempts from 
accreditation or approval agencies or persons providing home 
study services only. This exemption will allow continued 
convenient access by prospective adoptive parents to home study 
services throughout the country. Quality control will be 
assured in most cases by the fact that an accredited body or an 
approved person will provide the balance of the adoption 
services.
    Countries of origin are counting on those of us in the 
receiving countries to appropriately screen and prepare 
intercountry adoptive families. If we allow adoptions with no 
input from accredited bodies or approved persons then the 
Convention will have failed in its goal to protect children.
    The mandate becomes clear when we remember that 
intercountry adoptions should be about finding families for 
children, not children for families.
    Regarding accreditation and approval, some may argue that 
State licensure of agencies or persons would be sufficient. 
H.R. 2909 has rightfully determined that State licensure is not 
sufficient to assure compliance with the Convention, and to 
secure its protections.
    The thoroughness of State licensing varies from State to 
State too much for it to be a meaningful national standard. 
Although it would be convenient and easier for Joint Council 
agencies to rely only on State licensure, after 6 years of 
deliberation we have determined that State licensure does not 
rise to the level of quality standard that is needed for high 
quality intercountry adoption services.
    As part of its minimalist construct, H.R. 2909 has deferred 
to State law determinations concerning access to identifying 
information. In light of the evolving child welfare practices, 
Joint Council supports, at a minimum, access to identifying 
information that takes into account the needs of all parties. 
Joint Council historically has supported access to adoption 
records and provision to parents of all available information 
at time of placement.
    A caution regarding these provisions in H.R. 2909 is that 
they not have the unintended consequence of restricting the 
provision to prospective adoptive parents of information for 
which no guarantee of privacy has been either sought or 
intended.
    In a number of countries identifying information is 
routinely provided to adoptive parents, either because it is 
required for completion of the adoption or because the adoption 
authorities prefer that families have this information.
    Thank you very much.
    [The prepared statement of Ms. Freivalds appears in the 
appendix.]
    Chairman Gilman. Thank you.
    Dr. Jenista.

    STATEMENT OF DR. JERRI ANN JENISTA, AMERICAN ACADEMY OF 
                           PEDIATRICS

    Dr. Jenista. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to testify.
    Today I am representing the American Academy of Pediatrics, 
an organization of 55,000 primary care pediatricians and 
specialists dedicated to the health and safety of children.
    I have submitted separate testimony from the Adopted group 
which is a coalition of adoption practitioners in the United 
States.
    [The referenced material may be found in the appendix]
    I have been involved in intercountry adoption since 1982, 
performing research, providing education to parents and other 
persons involved in adoption, and providing direct care for 
patients. In the last 3 years alone, I have provided 
preadoption medical review on more than 6,000 cases, and 
ongoing consultative medical care for approximately 300 to 500 
new patients each year.
    The Academy is concerned about the numbers of children 
being adopted from overseas who have significant medical and 
behavioral problems that are poorly understood before arrival 
in this country.
    Over the past 10 years there has been a dramatic shift in 
the demographics of international adoption. In 1989, there were 
8,000 adoptions with over half of the children coming from 
excellent foster care in Korea and Latin America. In 1998, the 
number of adoptions doubled, but only 20 percent of children 
came from foster care, with the remainder coming from 
orphanages of variable quality.
    Fifteen years ago, the typical adopted child was from 
Korea, adequate information was provided to the family, the 
child was kept in experienced foster care, and after arrival in 
the adoptive home, most Korean children have done remarkably 
well, with only a few problems specific to intercountry 
adoption.
    Today, however, the typical child comes from one of two 
regions. The first child is one from China. She is invariably 
abandoned by her birth family because of the one-child policy. 
There is no available medical information about the family or 
the child's care. The child will wait for an adoption in an 
orphanage. The family will receive little or no useful 
information about her health, and much of the written 
documentation will be unreliable or inadequate. She will arrive 
in the United States as a toddler with a more difficult 
adjustment.
    After arrival, that child and her adoptive family 
immediately face issues of malnutrition, growth retardation, 
nutritional deficiencies, inadequate immunizations, and a 
markedly increased risk of many infectious diseases. For some 
children there are long-term challenges, including undiagnosed 
congenital defects and medical conditions, global developmental 
delays, and behavioral problems.
    The second child is one from one of the nations formerly 
under Soviet control such as Russia, Ukraine, Kazakhstan, or 
Romania. An orphan from one of these countries may be 
relinquished by the birth family because of economic hardship, 
but more than 25 percent of the children offered for adoption 
are available because of an involuntary termination of parental 
rights because of significant abuse or neglect in the birth 
family.
    The rates of prematurity, low birth weight, prenatal 
exposure to drugs, alcohol, and tobacco, to sexually 
transmitted diseases, such as HIV, hepatitis B and C, and 
syphilis, are at unprecedented high levels. The incidence of 
previous physical or sexual abuse, physical or mental 
disabilities, chronic medical conditions, are exactly the same 
in Russia as in children entering into foster care in 
California.
    These children will live in regimented orphanage settings 
with inadequate stimulation. Medical care is practiced on a 
model unintelligible to Western practitioners, with unusual 
medical diagnoses and widespread use of potentially dangerous 
drugs. Scanty medical information provides bizarre terminology 
and may be falsified.
    The child will not arrive into a home until he is a toddler 
or an older child. About 10 percent of these children will 
arrive to new adoptive families with a biologic or other 
unrelated sibling. The high-risk medical and social background, 
prolonged institutional living, and added stress of competing 
with another adopted child set up a situation fraught with 
difficult transitions.
    After adoption, this child faces all the problems of the 
Chinese child and more. All studies of these previously 
institutionalized children have shown long-term developmental, 
cognitive, and behavioral issues that persist well into the 
school years and perhaps beyond. The degree of impairment is 
clearly related to the length of institutionalization. The 
longer the time the child is in an orphanage, the worse off he 
is.
    In my own research, approximately 50 percent of children 
coming from orphanages referred to families today are 
considered at high or moderate risk of an irreparable medical, 
developmental, or emotional condition.
    In summary, all children coming from institutional settings 
to the United States today should be considered to have special 
needs. Because of that, the American Academy of Pediatrics has 
four concerns about adoption practice today.
    Our first concern is about the adequacy and availability of 
information released to prospective adoptive families. 
Currently, approximately 40 percent of records submitted to my 
office fall in the category of ``unable to assess'' because of 
inadequate information. Family expectations based on inadequate 
information and an unrealistic idea of who their child might 
become are reflected in a significant increase in the number of 
wrongful adoption suits against agencies and facilitators. The 
basis of these suits has been undiagnosed or should-have-been-
foreseen medical and behavioral problems that were not 
disclosed to the family.
    Second, we have concerns about the education and 
preparation of families about potential or medical or 
behavioral issues. Currently there is no requirement that 
families receive any information or education, or when no 
information is available, at least about the circumstances of 
the child that they would be adopting. The extraordinarily high 
cost of intercountry adoption instills in families a high 
expectation for the health of the child.
    The current new ``entreperurial'' types of agencies, some 
of whom are not the philanthropic or missionary institutions 
referred to by Mr. Brady, may not practice using accepted child 
welfare standards.
    Third, we have concerns that agencies and adoption 
facilitators are not providing adequate services after the 
child arrives in the United States. An extreme example of an 
unprepared family would be the death of the Russian child in 
the hands of an adoptive mother in Colorado. If that family had 
received appropriate services, perhaps that situation would not 
have occurred.
    Finally, we have concern about inadequate data on the 
outcomes of intercountry adoptions, since there is no mandated 
followup.
    Our summary recommendations are in our written testimony, 
but in essence, we are most concerned that Health and Human 
Services should require accreditation standards for agencies 
and adoption facilitators that would require that appropriate 
information is obtained from orphanages about individual 
children and their conditions, that facilitators and agencies 
are not allowed to have families sign waivers absolving the 
agency of responsibility, that agencies should provide 
education for families, and that they should provide adequate 
time after referred information for families to consider those 
children; that agencies should be required to give families 
sufficient time after that information is received to process 
``who'' this child is, that they should provide post-adoption 
services to families and make efforts to determine the well-
being of the child after adoption.
    A method of collection about the numbers and progress of 
international adoptees also should be founded.
    In conclusion, it is important to reemphasize that we 
strongly believe that such adoptions are positive and desirable 
solutions for the placement of orphaned or abandoned children. 
The vast majority of intercountry adoptions are successful. 
However, our goal is to advocate for these children by trying 
to ensure that the adoption process is medically ethical and 
reasonable.
    [The prepared statement of Dr. Jenista appears in the 
appendix.]
    Chairman Gilman. Thank you very much, Doctor. Thank you for 
your recommendations.
    Mr. Liederman.

  STATEMENT OF DAVID LIEDERMAN, PRESIDENT AND CEO, COUNCIL ON 
      ACCREDITATION OF SERVICES FOR FAMILIES AND CHILDREN

    Mr. Liederman. Thank you, Mr. Chairman. Thank you for all 
of your leadership over the years. We are appreciative of both 
your sponsorship and Mr. Gejdenson's sponsorship of this 
important legislation. Thank you.
    To my friend from Massachusetts, Bill Delahunt, thank you 
for all your great work on this. We appreciate it. Bill and I 
were in the legislature together in Massachusetts. We thought 
that was the highest political calling, but then he decided 
Congress was a higher political calling.
    Mr. Delahunt.  It was, believe me, the highest political 
calling.
    Mr. Liederman. I wanted to use my few minutes to talk about 
the accreditation provisions of the legislation and speak to 
that issue.
    Let me first say a word about the Council on Accreditation, 
which I head. COA has been in business for 22 years. We 
accredit, or are in the process of accrediting 1,200 
organizations in the United States that serve children and 
families. It is a well-developed system. It is a terrific 
system that accredits both public and private agencies.
    For example, we are in the final stages of accrediting the 
Department of Children and Families in Illinois, the largest 
department serving children and families in our country. 
Illinois is also requiring that all of the private agencies 
that they contract with have to be accredited by the Council on 
Accreditation.
    We are accrediting all of the 37 community mental health 
agencies in North Carolina. The entire mental health system in 
North Carolina is being accredited by the Council on 
Accreditation. The State of Kentucky is in the final stages of 
accrediting their system. Missouri has just applied to accredit 
their entire child welfare system. Ohio is accrediting their 
counties. Maryland is accrediting their counties.
    So we believe accreditation is the way to go, and I think 
in the future every agency serving children and families in the 
United States, public and private, will have to be accredited. 
It will be the minimum requirement for serving vulnerable kids 
and families in the United States, as it should be. It is the 
bar that needs to be set if agencies are going to provide 
quality services to kids and families.
    The question that I always ask people is, would anyone go 
to a hospital that was not accredited? No, of course not. Would 
anyone send their child to a university that was not 
accredited? No, of course not. Those are minimum standards.
    As Mr. Brady pointed out, and I agree with him, there is no 
foolproof system in the United States. We have not come up with 
one yet. But the fact is that accreditation is the single best 
system that I know, having spent 35 years in this business. To 
ensure that there will be quality services for children and 
families who need our help.
    The Council is sponsored and supported by 23 national 
organizations, including the Alliance for Children and 
Families, the Association of Jewish Family and Children's 
Agencies, Catholic Charities of the United States, the Child 
Welfare League of America, Lutheran Services of America, the 
Joint Council for International Children's Services, and the 
National Council for Adoption.
    They are all national sponsors or supporters of the Council 
on Accreditation, which is an independent not-for-profit 
accrediting body with an independent board of directors. So the 
accreditation process has integrity to it.
    It is a well-thought-through process which includes a self-
study that is conducted by the agency themselves. Following the 
self-study, there is a site visit where we have trained 1,000 
peer reviewers across the country who visit agencies to review 
their materials, to look at some of the issues that they have 
identified in their self-study, and to score the agency 
according to the standards that we have developed.
    The Council developed standards for international adoption 
in 1992. We revised those standards in 1997. Of the 1,200 
agencies that we accredit, 226 are adoption agencies and 11 
provide international adoption services. So we already have 
standards in place that speak to the issue of international 
adoption, and these standards are supported by the 20 
organizations who make up The Hague Alliance, who participated 
in their development.
    The standards speak to issues like legal regulatory 
compliance and service delivery. They also speak to human 
resource requirements and outcomes as well as quality 
assurance, all of the things that we would expect that an 
agency providing the highest quality services to kids and 
families.
    We always have to ask ourselves the bottom line question: 
Are the services being provided by the agency services that we 
would want for ourselves, our own kids, our own families? I 
believe the way you get a yes to that question is through 
accreditation. I am very pleased that you have included the 
accreditation provision in this bill, and we look forward to 
working with you to implement it. We look forward to working 
with HHS and the Department of State to make sure that we have 
a terrific program that does well for our kids and families.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Liederman appears in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Liederman.
    I see we have a series of votes. That would mean a lengthy 
delay. What I am going to suggest, if Mr. Pitkowsky and Ms. 
Sacco would be very brief in their testimony, and we will 
submit written questions to the panelists, rather than have 
them have to stay around waiting for the votes to be concluded.
    Mr. Pitkowsky.

 STATEMENT OF SAM PITKOWSKY, ADOPTIVE PARENTS COMMITTEE OF NEW 
                              YORK

    Mr. Pitkowsky. Thank you, Mr. Chairman. My name is Sam 
Pitkowsky. I am the adoptive father of two internationally born 
daughters, Helen and Irene. I am Vice President of the Adoptive 
Parents Committee.
    The Adoptive Parents Committee is a volunteer organization 
dedicated to promoting and improving all areas of adoption. APC 
is a non-profit, non-sectarian parents support group run solely 
by unpaid volunteers. APC is dedicated to a belief that every 
child deserves a secure, permanent, loving home.
    APC was organized in 1955 by a group of people united by 
their adoption experience. APC currently has over 2,500 member 
families of married and single persuasion who are involved in 
intercountry adoption as well as independent adoption.
    The Adoptive Parents Committee views The Hague Convention 
on Intercountry Adoption as a progressive step toward promoting 
adoption and protecting children, birth parents, and adoptive 
parents from unscrupulous adoption practices. The Convention 
acknowledges adoption as a positive alternative for children 
whose biological parents are unable to care for them.
    Fortunately, the Convention gives adoptees the same legal 
status as those who are born into families, confirming adoption 
as a legal process of merit.
    APC supports these underlying principles that led to the 
drafting of the Convention. We support the ratification of the 
treaty, providing appropriate implementing language is enacted. 
Such implementing legislation should fully support the 
Convention in both spirit and practice, without placing undue 
burdens or obstructions on the adoption process.
    Provisions that may result in delays to the adoption 
process or may prohibit qualified individuals from adopting 
would be contrary to the spirit and purpose of the Convention, 
and have no place in U.S.-implementing legislation.
    We appreciate the efforts of this Committee and other 
Members of Congress to ensure that the legislation will benefit 
children and families.
    In reviewing H.R. 2909, we saw several items that were in 
implementation that continues to support all avenues of 
adoption. S. 682 imposes an additional 12-month wait for U.S. 
citizens to be eligible for international adoptions, and limits 
adoption of U.S. children to married men and women. Not only 
would this be an obstruction to placement for U.S. children, 
but also may force reciprocal regulation by other countries 
which would inhibit certain U.S. citizens from adopting.
    In contrast, H.R. 2909 promotes adoption by allowing 
children who are available for adoption to be eligible for 
international adoption. It also provides for both single and 
married persons to adopt, thus providing a larger pool of 
prospective adoptive parents for children who are waiting to be 
adopted.
    We also applaud section 202 of H.R. 2909, which allows for 
the role of approved persons in providing adoption services. By 
making provisions for approval of persons as well as 
accreditation of agencies we would provide a broad base of 
adoption services for use by U.S. citizens to adopt.
    Chairman Gilman. If you would summarize your statement, we 
will put your full statement into the record.
    Mr. Pitkowsky. Yes, I will.
    The main issues we would like to comment on are about 
consumer protections, that we would like to make sure that 
consumer protections are an issue that is here, and that the 
issues of wrongful adoptions are addressed; also, that the 
accreditation process allows small agencies to participate. We 
feel that this is a progressive step, and hope that these 
changes will allow for it.
    [The prepared statement of Mr. Pitkowsky appears in the 
appendix.]
    Chairman Gilman. Thank you very much.
    Ms. Sacco. Please summarize your statement. We may want to 
ask you a couple of questions before we leave.

              STATEMENT OF KATHLEEN SACCO, ADOPTEE

    Ms. Sacco. Sure.
    I am an adoption social worker for Family and Children's 
Agency in Connecticut. My work includes assisting and educating 
families adopting internationally. However, my first experience 
in adoption occurred on Christmas Eve, 1976, when my sister 
Kristy and I arrived in this country from Korea to meet my 
awaiting parents. So I come before you today not only as a 
professional, but also as an international adoptee.
    In my personal experience and as a professional social 
worker, I have come to know adoption as a process rife with 
paradoxes. Birth parents must grieve the loss of a child which, 
for a variety of reasons, they choose to relinquish. Adoptive 
parents choose to experience the abundant joy and uncertainty 
of building their families through adoption. The adopted child 
goes through life often experiencing bittersweet feelings of 
loss and abandonment, mixed with the security and comfort 
within their ``forever families.'' As birth parents, adoptive 
parents, adoption agencies, and governments make life-
transforming choices, the child is at the fate of these 
monumental decisions.
    My career is based on a two-tiered set of values. The first 
value focuses on the needs of the adopted child and their need 
to have a voice in the adoption. Adoption agencies can often 
vary in their commitment to education and child advocacy. 
Mechanisms of accreditation will help ensure high uniform 
adoption standards to prevent abuse and exploitation of 
children.
    The second value focuses on birth parents and adoptive 
parents who make difficult life decisions about adoption. Both 
birth families and adoptive families require more preparation 
and support. Education needs to begin as soon as families 
consider adopting. While adoptees must accept their lack of 
choices in their early life, there is no reason why families 
should enter adoption blindly. Areas of education should 
include loss issues, a child's identity questions, and medical 
concerns.
    Post-placement support is also integral to a smooth 
adoption process. The story of my adoption did not end when my 
plane landed. Adoption is a life-long process that impacts both 
the adoptee and the adoptive parents. Agencies can serve as 
lifelong resources for families, offering such services as 
cultural information, counseling, and reunion support.
    I sit before you as one example of both the successes and 
the lessons to be learned about intercountry adoption. The 
adult adoptee community can be a new voice for both adoptees 
and for ethical adoption practice. International adoptees can 
provide a unique perspective on what is truly a transcultural 
experience. We can learn immensely from listening to these 
pioneers in adoption.
    An area of great importance to the adoptee community is the 
necessity to preserve our records and other information related 
to our adoptions. Adoptees have a need to better understand 
their beginnings. The choice to search and to have access to 
records is a powerful one for the community. In the paradox of 
adoption, the destiny of the child is changed irrevocably by 
the choices of others. Including a provision to access records 
in H.R. 2909 would respect the rights of adult adoptees to make 
decisions in regard to their birth histories. By having access 
to records, we as adoptees can provide a connection to our 
families past, as well as our own.
    My husband Paul and I are expecting our first child this 
December. Once again, I see my life through the lens of 
adoption. I wonder about my medical history and how my adoption 
will affect my child. In our society, with its knowledge of the 
role of genetic history, adoptees and their families live in 
ignorance of their genetic legacies. I also know that my child 
will ask, as I have, about his or her own ethnic connection to 
Korea.
    On our return trip from Korea, Paul and I escorted two 
babies to join their new families. Twenty-three years ago my 
sister and I were also carried off a plane into the waiting 
arms of my parents. As I was entrusted into the care of others, 
I was now helping to guide these two children through their 
journey of adoption. My life had truly come full circle. As an 
adoptee and an adoption professional, I have come to know the 
profound impact of the choices made by agencies and 
individuals. Ratification of The Hague Convention can serve as 
a vital framework in ensuring that these decisions are made 
prudently and that the needs of adoptees, birth parents, and 
adoptive parents can remain paramount.
    [The prepared statement of Ms. Sacco appears in the 
appendix.]
    Chairman Gilman.  Thank you very much. I regret that we are 
being cut short by the voting time.
    Just one question, and then I am sure Mr. Delahunt has a 
question. How can we improve the medical information for 
adoptive parents? Who would like to speak?
    Mr. Pitkowsky. I would like to just say that we believe 
that it is the process that the agency should be responsible 
for providing medical information, because they are the ones 
that are more experienced and have the translators right there, 
rather than the adoptive parents going to try and find it.
    Chairman Gilman. Anyone else have a comment?
    Mr. Liederman. One of the requirements in our standards 
requires that full disclosure of appropriate medical 
information be made, and that is a standard that has to be met 
by the agency.
    Chairman Gilman. Dr. Jenista.
    Dr. Jenista. It is not just disclosure of the information 
you already have, it is also an active effort to obtain 
information which exists, which is what is not being done 
currently.
    Chairman Gilman. Thank you very much.
    Did you have a comment?
    Ms. Freivalds. We agree with Dr. Jenista that there needs 
to be an active effort to get information, not just what is 
provided.
    Chairman Gilman. Thank you.
    Mr. Delahunt.
    Mr. Delahunt. The Chairman posed a question which I had 
intended to ask. I also want to apologize, we have less than 5 
minutes for a vote. But your testimony was very important. We 
look forward to submitting questions.
    In response to the testimony by Ms. Sacco, I have those 
same concerns that you articulated for my daughter in terms of 
her medical history and her desire at some point in her life to 
connect with her birth parents.
    Chairman Gilman. I regret that we only have 3 minutes to 
get to the Floor to vote. I want to thank our panelists for 
their time and input. We may have some written questions that 
we will forward to you following this hearing.
    [The prepared statement of American Academy of Adoption 
Attorneys appears in the appendix.]
    [The prepared statement of the National Council of 
Birthmothers appears in the appendix.]
    [The prepared statement of the Child Welfare League of 
America, Inc., appears in the appendix.]
    Chairman Gilman. The Committee stands adjourned.
    [Whereupon, at 12:24 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            October 20, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T4746.001
    
    [GRAPHIC] [TIFF OMITTED] T4746.002
    
    [GRAPHIC] [TIFF OMITTED] T4746.003
    
    [GRAPHIC] [TIFF OMITTED] T4746.004
    
    [GRAPHIC] [TIFF OMITTED] T4746.005
    
    [GRAPHIC] [TIFF OMITTED] T4746.006
    
    [GRAPHIC] [TIFF OMITTED] T4746.007
    
    [GRAPHIC] [TIFF OMITTED] T4746.008
    
    [GRAPHIC] [TIFF OMITTED] T4746.009
    
    [GRAPHIC] [TIFF OMITTED] T4746.010
    
    [GRAPHIC] [TIFF OMITTED] T4746.011
    
    [GRAPHIC] [TIFF OMITTED] T4746.012
    
    [GRAPHIC] [TIFF OMITTED] T4746.013
    
    [GRAPHIC] [TIFF OMITTED] T4746.014
    
    [GRAPHIC] [TIFF OMITTED] T4746.015
    
    [GRAPHIC] [TIFF OMITTED] T4746.016
    
    [GRAPHIC] [TIFF OMITTED] T4746.017
    
    [GRAPHIC] [TIFF OMITTED] T4746.018
    
    [GRAPHIC] [TIFF OMITTED] T4746.019
    
    [GRAPHIC] [TIFF OMITTED] T4746.020
    
    [GRAPHIC] [TIFF OMITTED] T4746.021
    
    [GRAPHIC] [TIFF OMITTED] T4746.022
    
    [GRAPHIC] [TIFF OMITTED] T4746.023
    
    [GRAPHIC] [TIFF OMITTED] T4746.024
    
    [GRAPHIC] [TIFF OMITTED] T4746.025
    
    [GRAPHIC] [TIFF OMITTED] T4746.026
    
    [GRAPHIC] [TIFF OMITTED] T4746.027
    
    [GRAPHIC] [TIFF OMITTED] T4746.028
    
    [GRAPHIC] [TIFF OMITTED] T4746.029
    
    [GRAPHIC] [TIFF OMITTED] T4746.030
    
    [GRAPHIC] [TIFF OMITTED] T4746.031
    
    [GRAPHIC] [TIFF OMITTED] T4746.032
    
    [GRAPHIC] [TIFF OMITTED] T4746.033
    
    [GRAPHIC] [TIFF OMITTED] T4746.034
    
    [GRAPHIC] [TIFF OMITTED] T4746.035
    
    [GRAPHIC] [TIFF OMITTED] T4746.036
    
    [GRAPHIC] [TIFF OMITTED] T4746.037
    
    [GRAPHIC] [TIFF OMITTED] T4746.038
    
    [GRAPHIC] [TIFF OMITTED] T4746.039
    
    [GRAPHIC] [TIFF OMITTED] T4746.040
    
    [GRAPHIC] [TIFF OMITTED] T4746.041
    
    [GRAPHIC] [TIFF OMITTED] T4746.042
    
    [GRAPHIC] [TIFF OMITTED] T4746.043
    
    [GRAPHIC] [TIFF OMITTED] T4746.044
    
    [GRAPHIC] [TIFF OMITTED] T4746.045
    
    [GRAPHIC] [TIFF OMITTED] T4746.046
    
    [GRAPHIC] [TIFF OMITTED] T4746.047
    
    [GRAPHIC] [TIFF OMITTED] T4746.048
    
    [GRAPHIC] [TIFF OMITTED] T4746.049
    
    [GRAPHIC] [TIFF OMITTED] T4746.050
    
    [GRAPHIC] [TIFF OMITTED] T4746.051
    
    [GRAPHIC] [TIFF OMITTED] T4746.052
    
    [GRAPHIC] [TIFF OMITTED] T4746.053
    
    [GRAPHIC] [TIFF OMITTED] T4746.054
    
    [GRAPHIC] [TIFF OMITTED] T4746.055
    
    [GRAPHIC] [TIFF OMITTED] T4746.056
    
    [GRAPHIC] [TIFF OMITTED] T4746.057
    
    [GRAPHIC] [TIFF OMITTED] T4746.058
    
    [GRAPHIC] [TIFF OMITTED] T4746.059
    
    [GRAPHIC] [TIFF OMITTED] T4746.060
    
    [GRAPHIC] [TIFF OMITTED] T4746.061
    
    [GRAPHIC] [TIFF OMITTED] T4746.062
    
    [GRAPHIC] [TIFF OMITTED] T4746.063
    
    [GRAPHIC] [TIFF OMITTED] T4746.064
    
    [GRAPHIC] [TIFF OMITTED] T4746.065
    
    [GRAPHIC] [TIFF OMITTED] T4746.066
    
    [GRAPHIC] [TIFF OMITTED] T4746.067
    
    [GRAPHIC] [TIFF OMITTED] T4746.068
    
    [GRAPHIC] [TIFF OMITTED] T4746.069
    
    [GRAPHIC] [TIFF OMITTED] T4746.070
    
    [GRAPHIC] [TIFF OMITTED] T4746.071
    
    [GRAPHIC] [TIFF OMITTED] T4746.072
    
    [GRAPHIC] [TIFF OMITTED] T4746.073
    
    [GRAPHIC] [TIFF OMITTED] T4746.074
    
    [GRAPHIC] [TIFF OMITTED] T4746.075
    
    [GRAPHIC] [TIFF OMITTED] T4746.076
    
    [GRAPHIC] [TIFF OMITTED] T4746.077
    
    [GRAPHIC] [TIFF OMITTED] T4746.078
    
    [GRAPHIC] [TIFF OMITTED] T4746.079
    
    [GRAPHIC] [TIFF OMITTED] T4746.080
    
    [GRAPHIC] [TIFF OMITTED] T4746.081
    
    [GRAPHIC] [TIFF OMITTED] T4746.082
    
    [GRAPHIC] [TIFF OMITTED] T4746.083
    
    [GRAPHIC] [TIFF OMITTED] T4746.084
    
    [GRAPHIC] [TIFF OMITTED] T4746.085
    
    [GRAPHIC] [TIFF OMITTED] T4746.086
    
    [GRAPHIC] [TIFF OMITTED] T4746.087
    
    [GRAPHIC] [TIFF OMITTED] T4746.088
    
    [GRAPHIC] [TIFF OMITTED] T4746.089
    
    [GRAPHIC] [TIFF OMITTED] T4746.090
    
    [GRAPHIC] [TIFF OMITTED] T4746.091
    
    [GRAPHIC] [TIFF OMITTED] T4746.092
    
    [GRAPHIC] [TIFF OMITTED] T4746.093
    
    [GRAPHIC] [TIFF OMITTED] T4746.094
    
    [GRAPHIC] [TIFF OMITTED] T4746.095
    
    [GRAPHIC] [TIFF OMITTED] T4746.096
    
    [GRAPHIC] [TIFF OMITTED] T4746.097
    
    [GRAPHIC] [TIFF OMITTED] T4746.098
    
    [GRAPHIC] [TIFF OMITTED] T4746.099
    
    [GRAPHIC] [TIFF OMITTED] T4746.100
    
    [GRAPHIC] [TIFF OMITTED] T4746.101
    
    [GRAPHIC] [TIFF OMITTED] T4746.102
    
    [GRAPHIC] [TIFF OMITTED] T4746.103
    
    [GRAPHIC] [TIFF OMITTED] T4746.104
    
    [GRAPHIC] [TIFF OMITTED] T4746.105
    
    [GRAPHIC] [TIFF OMITTED] T4746.106
    
    [GRAPHIC] [TIFF OMITTED] T4746.107
    
    [GRAPHIC] [TIFF OMITTED] T4746.108
    
    [GRAPHIC] [TIFF OMITTED] T4746.109
    
    [GRAPHIC] [TIFF OMITTED] T4746.110
    
    [GRAPHIC] [TIFF OMITTED] T4746.111
    
    [GRAPHIC] [TIFF OMITTED] T4746.112
    
    [GRAPHIC] [TIFF OMITTED] T4746.113
    
    [GRAPHIC] [TIFF OMITTED] T4746.114
    
    [GRAPHIC] [TIFF OMITTED] T4746.115
    
    [GRAPHIC] [TIFF OMITTED] T4746.116
    
    [GRAPHIC] [TIFF OMITTED] T4746.117
    
    [GRAPHIC] [TIFF OMITTED] T4746.118
    
    [GRAPHIC] [TIFF OMITTED] T4746.119
    
    [GRAPHIC] [TIFF OMITTED] T4746.120
    
    [GRAPHIC] [TIFF OMITTED] T4746.121
    
    [GRAPHIC] [TIFF OMITTED] T4746.122
    
    [GRAPHIC] [TIFF OMITTED] T4746.123
    
    [GRAPHIC] [TIFF OMITTED] T4746.124
    
    [GRAPHIC] [TIFF OMITTED] T4746.125
    
    [GRAPHIC] [TIFF OMITTED] T4746.126
    
    [GRAPHIC] [TIFF OMITTED] T4746.127
    
    [GRAPHIC] [TIFF OMITTED] T4746.128
    
    [GRAPHIC] [TIFF OMITTED] T4746.129
    
    [GRAPHIC] [TIFF OMITTED] T4746.130
    
    [GRAPHIC] [TIFF OMITTED] T4746.131
    
    [GRAPHIC] [TIFF OMITTED] T4746.132
    
    [GRAPHIC] [TIFF OMITTED] T4746.133
    
    [GRAPHIC] [TIFF OMITTED] T4746.134
    
    [GRAPHIC] [TIFF OMITTED] T4746.135
    
    [GRAPHIC] [TIFF OMITTED] T4746.136
    
    [GRAPHIC] [TIFF OMITTED] T4746.137
    
    [GRAPHIC] [TIFF OMITTED] T4746.138
    
    [GRAPHIC] [TIFF OMITTED] T4746.139
    
    [GRAPHIC] [TIFF OMITTED] T4746.140
    
    [GRAPHIC] [TIFF OMITTED] T4746.141
    
    [GRAPHIC] [TIFF OMITTED] T4746.142
    
    [GRAPHIC] [TIFF OMITTED] T4746.143
    
    [GRAPHIC] [TIFF OMITTED] T4746.144
    
    [GRAPHIC] [TIFF OMITTED] T4746.145
    
    [GRAPHIC] [TIFF OMITTED] T4746.146
    
    [GRAPHIC] [TIFF OMITTED] T4746.147
    
    [GRAPHIC] [TIFF OMITTED] T4746.148
    
    [GRAPHIC] [TIFF OMITTED] T4746.149
    
    [GRAPHIC] [TIFF OMITTED] T4746.150
    
    [GRAPHIC] [TIFF OMITTED] T4746.151
    
    [GRAPHIC] [TIFF OMITTED] T4746.152
    
    [GRAPHIC] [TIFF OMITTED] T4746.153
    
    [GRAPHIC] [TIFF OMITTED] T4746.154
    
    [GRAPHIC] [TIFF OMITTED] T4746.155
    

</pre></body></html>
